<html>
<title> - CONTRIBUTIONS OF IMMIGRANTS TO THE UNITED STATES ARMED FORCES</title>
<body><pre>[Senate Hearing 109-884]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-884
 
     CONTRIBUTIONS OF IMMIGRANTS TO THE UNITED STATES ARMED FORCES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2006

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
35-222 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Charles S. Abell, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

     Contributions of Immigrants to the United States Armed Forces

                             july 10, 2006

                                                                   Page

Martinez, Senator Mel, U.S. Senator from the State of Florida....    15
Chu, Hon. David S.C., Under Secretary of Defense for Personnel 
  and Readiness..................................................    17
Pace, Gen. Peter, USMC, Chairman, Joint Chiefs of Staff..........    20
Gonzalez, Emilio T., Director, U.S. Citizenship and Immigration 
  Services.......................................................    32
Rascon, Alfred, Former Director, Selective Service...............    39
Stock, Margaret D., Associate Professor of Constitutional and 
  Military Law, United States Military Academy...................    41

                                 (iii)


     CONTRIBUTIONS OF IMMIGRANTS TO THE UNITED STATES ARMED FORCES

                              ----------                              


                         MONDAY, JULY 10, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                         Miami, FL.
    The committee met, pursuant to notice, at 11:00 a.m., at 
Miami-Dade Community College, 245 NE. 4th Street, Miami, 
Florida, Senator John Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, Graham, 
and Kennedy.
    Other Senator present: Senator Martinez.
    Other Representative present: Congresswoman Ros-Lehtinen.
    Committee staff member present: Charles S. Abell, staff 
director.
    Majority staff members present: Sandra E. Luff, 
professional staff member; and Richard F. Walsh, counsel.
    Minority staff member present: Gerald J. Leeling, minority 
counsel.
    Staff assistants present: Jessica L. Kingston; Benjamin L. 
Rubin; and Pendred K. Wilson.
    Committee members' assistants present: John Ullyot, press 
secretary to Senator Warner; Becky Jensen, assistant to Senator 
McCain; Matthew R. Rimkunas, assistant to Senator Graham; and 
Ester Olavarria, assistant to Senator Kennedy.
    Other assistant present: Nilda Pederosa, assistant to 
Senator Martinez.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The Senate Armed 
Services Committee is very pleased to come together here in 
this historic part of America for what we regard as a very 
important and, indeed, historic hearing.
    Our committee members are pleased to be joined by the 
distinguished Senator from Florida, Senator Martinez.
    The committee meets today to receive testimony on the 
contributions of immigrants to the United States Armed Forces 
throughout America's history.
    I recognize our distinguished colleague, Senator Martinez 
of Florida, and thank him for his participation; and I also 
note that Congresswoman Ros-Lehtinen is present, and we welcome 
her.
    I'm pleased to have before the committee, on our first 
panel, the distinguished Chairman of the Joint Chiefs of Staff, 
General Peter Pace, United States Marine Corps; and the 
Honorable David Chu, Under Secretary of Defense for Personnel 
and Readiness. We welcome you, gentlemen.
    General Pace has been the Chairman of the Joint Chiefs of 
Staff since September 30, 2005. He is the first United States 
marine to hold this office; and, as Chairman, serves as the 
principal military advisor to the President of the United 
States, the Secretary of Defense, and the National Security 
Council.
    General Pace, who is himself the son of an Italian 
immigrant, graduated from the United States Naval Academy in 
1967, and served thereafter with distinction in Vietnam as a 
rifle platoon leader with the First Marine Division.
    He also served at every level of command in the United 
States Marine Corps during his remarkable career, and was 
commander of the U.S. Southern Command in 2000 and 2001, and 
Vice Chairman of the Joint Chiefs of Staff from August 2001 
through September 2005.
    Secretary Chu, likewise, has a very distinguished record of 
public service. He advises the Secretary of Defense on policy 
related to readiness, recruitment, career deployment, pay, and 
benefits for military members, and was appointed in June 2001.
    He began his distinguished career of public service in 1981 
as the Director of Program Analysis and Evaluation in the 
Office of the Secretary of Defense, serving under three 
Secretaries of Defense in that period.
    Gentlemen, we thank you for joining us today.
    In our Armed Forces today, there are over 60,000 immigrants 
and naturalized American citizens serving on active duty and in 
the Guard and Reserve. They follow in the footsteps of 
soldiers, sailors, airmen, and marines, from previous 
generations who immigrated from foreign lands, and, likewise, 
served with distinction.
    I might add that when I was Secretary of the Navy, one of 
my principal advisors, and a man I admired greatly, the 
``Father of the Nuclear Navy,'' Admiral Rickover, was an 
immigrant.
    In our nation-wide debate today on the very important 
issues regarding immigration, and as part of the oversight 
responsibilities of Congress regarding proposed legislation now 
pending before both Houses, we receive this testimony.
    Today, the committee will listen to these two panels of 
witnesses, on the historic and contemporary role of immigrants 
in the United States military, and about issues affecting the 
continuing ability of immigrants to serve in the Armed Forces 
of the United States.
    The ability to become a naturalized citizen by virtue of 
military service has been authorized in law since 1952.
    Recent changes since the attacks of September 11, 2001, 
brought about by statute and Presidential Executive order, have 
simplified the process of achieving citizenship by military 
members.
    We've all read about recent naturalization ceremonies held 
in Iraq, Afghanistan, United States, and around the globe.
    The committee will cover in this hearing how to further 
enhance opportunities for immigrants to serve in the Armed 
Forces and achieve that citizenship.
    Further, the Armed Services Committee today, since we have 
responsibility for the Guard and Reserve, given the important 
new mission the President of the United States has assigned to 
the National Guard, Operation Jump Start, in which the National 
Guard augments the Border Patrol along our southern border, I 
will also seek testimony from both of these witnesses about 
this operation.
    The National Guard has been performing a mission on our 
border for some period of time, but this presidential directive 
adds a very significant strengthening to the security of that 
border.
    Before I turn to Senator McCain, I note that I've received 
a letter from Congressman Diaz-Balart, that, without objection, 
I'll put in the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Warner. I also received a letter from General 
Colin Powell, former Chairman of the Joint Chiefs of Staff, 
that Senator McCain will speak to momentarily.
    Senator Kennedy.
    Senator Kennedy. Thank you very much. I want to thank 
Senator Warner, who is the chairman of the Armed Services 
Committee, for having this extremely important committee 
meeting today about the role of immigrants and their service in 
the military of this country, which has been one of great 
distinction. I think we'll hear from General Pace on that in a 
few moments.
    I also want to say what a pleasure it is to be here with 
our host, Senator Mel Martinez, and thank him so much for his 
generosity in welcoming us all here, and also for his eloquence 
and passion on so many issues; but, particularly, on the issues 
of immigration reform.
    It's a great honor, as well, to be here with Senator 
McCain, who has provided such leadership in bringing this 
country to a sensible and responsible view and position on the 
quite complex issue of immigration reform.
    Senator Lindsey Graham, who is also here, has been 
absolutely indispensable in helping to bring good insights into 
this issue on the floor of the Senate.
    It is a real honor for me to be here, and I join the 
chairman of the committee in thanking the campus president, Dr. 
Montoya, for welcoming us all here; and the chair of the board 
of trustees, Helen Ferre, for welcoming us all.
    This is an urban community college that provides vital 
educational opportunities to so many individuals here in this 
community and in the greater community, and it's an educational 
institution of distinction; I think all of us feel greatly 
honored that they would help provide us the chance to come 
together and have this important hearing today.
    When immigrants join the military, they take the same oath 
of enlistment as any American soldier, sailor, airman, or 
marine.
    This is what they say: ``I do solemnly swear I will support 
and defend the Constitution of the United States against all 
enemies, foreign and domestic; I'll bear true faith and 
allegiance to the same; I'll obey the orders of the President 
of the United States, and the orders of the officers appointed 
over me according to the regulations and the Uniform Code of 
Military Justice. So help me, God.''
    I can think of no greater commitment to their adoptive 
land. They take that solemn promise to heart, and, in all of 
our wars, immigrants have fought side by side with Americans 
with great valor.
    Immigrants make up 5 percent of our military today. They 
earn 20 percent of the Congressional Medals of Honor, and at 
least 101 have made the ultimate sacrifice to our country in 
Iraq and Afghanistan.
    I understand they have also been awarded 150 bronze stars 
for valor and gallantry in Iraq and Afghanistan, and 2 silver 
stars. It's an extraordinary record.
    Naturalization has a special place in our society, and it 
is a uniquely powerful moment when new citizens embrace our 
Nation and our Nation embraces them. Naturalized citizens are 
Americans by choice, and that choice is a great tribute to our 
country and its ideals.
    Given the deep commitment of these immigrants to our land, 
it is an affront to their noble military service to declare the 
12 million undocumented immigrant men, women, and children to 
be criminals, as some in Congress have done; and it is an 
insult to their dedication to our defense when the far right in 
Congress makes the wrong-headed bumper-sticker claim that the 
solution to our immigrant problem is just to build more fences 
and add more Border Patrols.
    Clearly, we must take serious steps to secure our borders 
and enhance enforcement, but common sense suggests that we are 
not going to deport 12 million undocumented immigrants.
    Instead, we owe it to our Nation to take into account what 
these hardworking immigrant families have to offer to America 
and provide them with a path to earn the privilege of American 
citizenship.
    Once again, we honor the immigrants who serve in our 
military, especially in these difficult and dangerous times. I 
commend the committee for convening this hearing, and I thank 
the distinguished witnesses for their testimony here today.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Kennedy follows:]

            Prepared Statement by Senator Edward M. Kennedy

    Mr. Chairman, I commend you for holding this important hearing on 
the contributions of immigrants in the United States Armed Forces to 
the defense of our Nation.
    I also want to commend Senator Warner, Senator McCain, Senator 
Graham, and Senator Martinez for their leadership in moving us forward 
toward realistic immigration reform.
    If anyone doubts the many benefits that immigrants bring to our 
country, they need to look no farther than their valiant service in the 
United States military.
    These immigrants could easily have taken civilian jobs to care for 
their families. But today, more than 60,000 naturalized citizens and 
permanent residents now wear the uniform of the United States of 
America. They take the same oath of enlistment as any American soldier, 
sailor, airman, or marine.

          ``I do solemnly swear that I will support and defend the 
        Constitution of the United States against all enemies, foreign 
        and domestic; that I will bear true faith and allegiance to the 
        same; and that I will obey the orders of the President of the 
        United States and the orders of the officers appointed over me, 
        according to regulations and the Uniform Code of Military 
        Justice. So help me God.''

    I can think of no greater commitment to their adopted land.
    They take this solemn promise to heart. In all of our wars, 
immigrants have fought side by side with Americans--and with great 
valor. They make up 5 percent of our military today, but over our 
history have earned 20 percent of the Congressional Medals of Honor. At 
least 101 have made the ultimate sacrifice for our country in Iraq and 
Afghanistan.
    Since the President and Congress made changes to expedite 
citizenship applications filed by immigrant men and women in our armed 
services, more than 13,000 servicemembers have naturalized. I have had 
the honor and privilege of participating in military naturalization 
ceremonies for some of these ``green card troops.''
    Naturalization has a special place in our society. It is the 
uniquely powerful moment when new citizens embrace our Nation, and our 
Nation embraces them. Naturalized citizens are Americans by choice, and 
that choice is a great tribute to our country and its ideals.
    Given the deep commitment of these immigrants to our land, it is an 
affront to their noble military service to declare the 12 million 
undocumented immigrant men, women, and children to be criminals, as 
some in Congress have done. It is an insult to their dedication to our 
defense when the far right in Congress makes the wrong headed bumper 
sticker claim that the solution to our immigration problems is just to 
build more fences and add more Border Patrols.
    We have tried that before and it doesn't work. This simplistic 
proposal led by the far right in Congress is a formula for failure. It 
would leave us weaker and less secure.
    Americans know that our immigration system is broken. But they also 
understand that immigration is a complex issue that requires a 
comprehensive solution.
    Clearly, we must take serious steps to secure our borders and 
enhance enforcement. But common sense suggests that we are not going to 
round up 12 million undocumented immigrants and deport them. Instead, 
we owe it to our Nation to take into account what these hard working 
immigrant families have to offer to America's strength, security, and 
values in the years ahead. We must provide a path for them to learn 
English, pay their taxes, show a steady work history, and earn the 
privilege of American citizenship. We must establish a means for future 
immigrants to come here legally to meet the legitimate needs of our 
employers for more workers.
    We must also enact the Development, Relief, and Education for Alien 
Minors (DREAM) Act, which is included in the Senate bill. This 
bipartisan compromise will enable immigrant students to pursue higher 
education like citizens, or join the military, as many are eager to do. 
The DREAM Act is the right title, since the act will give thousands of 
bright, hard-working immigrant students a chance to pursue their 
``American Dream.'' By denying them these opportunities, we deny our 
country their intelligence, their creativity, their energy, and often 
their loyalty.
    President Bush and a bipartisan majority in the United States 
Senate support this comprehensive immigration reform. Religious 
leaders, business leaders, and community leaders are calling on 
Congress to pass it this year.
    These leaders support comprehensive reform because they are 
eyewitnesses to the patriotic spirit of our courageous immigrants in 
uniform as well as the many, many other immigrants who are part of our 
extraordinary history and heritage. Immigrants are an indispensable 
element of what makes America the Promised Land. They have contributed 
immensely to our communities. They have created new jobs, and even 
whole new industries, and have helped make America the land of freedom, 
hope, and opportunity that it is today.
    Once again, we honor those immigrants who serve in our military, 
especially in these dangerous and difficult times. I commend this 
committee for convening this hearing on such an important subject, and 
I thank the distinguished witnesses for their testimony today.

    Chairman Warner. Thank you very much, Senator Kennedy. 
Senator Kennedy, you've been a great leader on the floor of the 
Senate with regard to the immigration bill, and you have 
collaborated with my long-time good friend, Senator McCain.
    I want to particularly thank Senator McCain, together with 
Senators Graham and Martinez, because the original concept of 
this hearing was provided by these three distinguished 
senators.
    Senator McCain.
    Senator McCain. I thank you, Mr. Chairman. I would like to 
thank you for holding and chairing this hearing, and also for 
your involvement in this issue.
    I'm always pleased that Senator Kennedy, and my friends, 
Senators Graham and Martinez, are here. I would like to thank 
the community college for their hospitality again, and of 
course, we would like to thank Mayor Manny Diaz for his 
hospitality here in Miami.
    As everyone knows, Congress has been engaged in an 
immigration debate for over a year now. I would like to begin 
by saying that any reform--any reform--that is ultimately 
adopted by both bodies of Congress, and signed into law by the 
President, must address all aspects of the immigration debate. 
It cannot, should not, and will not be an enforcement-only 
policy. An enforcement-only strategy will not make our Nation 
safer or more economically sound.
    Though our hearing today will primarily focus on one aspect 
of the contributions immigrants make in our society, we cannot 
lose sight of the fact that our Nation cannot survive as a 
leader in this world without the life blood and vitality 
provided by immigrants.
    It is not enough to secure our borders and go home. We must 
recognize this need for immigration in our country, and deal 
with those immigrants that are already here in a humane, fair, 
and just way.
    Immigration reform is a very important and complex subject 
that is among the most difficult and divisive we face. Without 
comprehensive immigration reform, our Nation's security and 
economy are vulnerable.
    Those of us from border States witness every day the impact 
illegal immigration is having on our friends and neighbors, our 
country, and cities' services, our economy, and our 
environment. We deal with the degradation of our lands and the 
demands imposed on our hospitals and other public resources.
    It's a matter of life and death for many living along our 
border. We have hundreds of people flowing across our borders 
every day, and an estimated 11 to 12 million people living in 
the shadows in every State in our country.
    Our current system doesn't protect us from people who want 
to harm us. It does not meet the needs of our economy, and it 
leaves too many people vulnerable to exploitation and abuse.
    Mr. Chairman, we need immigrants in this country. The 
current immigration system does not adequately and lawfully 
address this need.
    As long as the situation exists without a legal path for 
immigrants to enter the country, we will have desperate people 
illegally crossing our borders and living in the shadows of our 
towns, cities, and rural communities. That is not acceptable, 
particularly when we are fighting a war on terrorism.
    The vast majority of individuals attempting to cross our 
borders do not intend to harm our country. They're coming to 
meet our demand for labor and to earn money to feed their 
families.
    We've seen time and again that as long as there are jobs 
available in this country for people who live in poverty and 
hopelessness in other countries, those people will risk their 
lives to cross our borders no matter how formidable the 
barriers.
    Most will be successful. By the Border Patrol's own 
estimates, 99 percent of those apprehended coming across the 
border are doing so for work. However, the Border Patrol is 
overwhelmed by these individuals. They cannot possibly 
apprehend every crosser being smuggled in, no matter how many 
resources we provide.
    That's why any new immigration law must establish a legal 
channel for immigrants to enter the United States, after they 
have passed background checks and have secured employment. Then 
we can free up Federal officials to focus on those individuals 
intending to do harm through drug smuggling, human trafficking, 
and terrorism.
    Throughout our Nation's history, immigrants have proven to 
be hardworking, ingenious, and prosperous. The armed services 
provide a unique opportunity and ability for immigrants to 
better their place and position.
    More than 20 percent, as you noted, Mr. Chairman, of the 
recipients of the Congressional Medal of Honor, the Nation's 
highest decoration, have been immigrants. The creation of the 
submarine, the helicopter, and the ironclad ship, all resulted 
from newcomers to our country.
    Additionally, during World War II, a combat team made up of 
the sons of Japanese immigrants was the most decorated regiment 
of its size. Some of our most decorated and famous service men, 
including former Secretary of State, Colin Powell, are first-
generation Americans or immigrants themselves.
    Mr. Chairman, with your indulgence, I would like to read 
the letter submitted for this hearing by Secretary Powell, 
former Chairman of the Joint Chiefs of Staff.

          Dear Chairman Warner: I am pleased to hear that the 
        Senate Armed Services Committee will be convening a 
        hearing regarding the contributions of immigrants to 
        our armed services.
          I deeply appreciate your invitation to give 
        testimony, and regret being unable to attend. I hope 
        you will permit me to convey my experiences as the son 
        of immigrants and articulate both the important role 
        immigrants' service plays in our Armed Forces, and the 
        need to enact comprehensive immigration reform.
          My parents, Luther and Maud Ariel Powell, emigrated 
        from Jamaica in the 1920s, and settled in a 
        neighborhood in the South Bronx, New York. My father 
        worked as a shipping clerk; my mother, a seamstress. I 
        grew up surrounded by two cultures, and took pride in 
        my immigrant roots.
          Upon graduating from college, I took a commission in 
        the Army, and found, in that institution, opportunities 
        to strive and succeed beyond my imagination. From the 
        greens of Lexington and Concord, to the sands of Iraq, 
        Americans have continually answered the call to arms 
        and successfully defended our way of life. I am proud 
        that much of that military success can be attributed to 
        the contributions of immigrants.
          The burden of defending our ideals and freedom has 
        always been shared by those who were not yet citizens. 
        I have witnessed time and again the bravery and valor 
        of soldiers defending a country that they consider 
        their adopted home. They are grateful for the 
        opportunities the United States provides, and we are 
        grateful for their sacrifices.
          As President Bush has stated, our Nation is in 
        desperate need of an overhaul of our immigration laws. 
        This must be done in a comprehensive manner to ensure 
        that we provide the same opportunities for future 
        immigrants as were available to my parents.
          While we ensure our national security and secure our 
        borders, we must also recognize the socially, 
        economically, and culturally revitalizing force 
        immigrants play in America. America's diversity is the 
        basis for its greatness, and we're a country that 
        prides itself on our openness to change.
          Those wishing to cause us harm cannot alter this 
        fundamental American ideal, and, in order to preserve 
        it, we must continue to embrace those who come to our 
        shores, not just those who have already benefited from 
        the American dream.
          Again, thank you for the opportunity to add my voice 
        to this important discussion.
            Sincerely,
                                      Colin Powell.

    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator McCain. Mr. Chairman, let me just say, there are 
numerous examples of immigrants who have already given their 
lives, as our witnesses will testify. I'm hopeful that at the 
end of the immigration debate, we can show the American people 
that we addressed a serious and urgent problem with sound 
judgment, honesty, common sense, and compassion.
    We must address immigration reform in a comprehensive--yes, 
comprehensive--manner. We cannot throw money at our borders and 
call it a day. If all we do is attempt to secure our borders, 
and nothing else, we will have failed the American people.
    I have no doubt that we will learn today of the sacrifices 
that many immigrants have made for their adoptive home. If we 
do not provide the same opportunities for future immigrants 
that were provided for our forefathers, it is an affront to our 
national ideals. We owe these servicemen more for the 
sacrifices that they have made for this country.
    In closing, I hope we will move forward in a thoughtful, 
productive manner, and call on both Houses to put the rhetoric 
and demagoguery aside, and sit down for meaningful discussions. 
It's past time to act, and the American people are losing 
patience.
    I thank you, Mr. Chairman, for your indulgence.
    Chairman Warner. I've been privileged to have known Senator 
McCain since we were associated together in the war in Vietnam 
in the Navy. I was his boss then. Now he orders me around.
    Senator McCain. Barely.
    Chairman Warner. Anyway, Senator McCain brings a very 
important, rugged, tough, determined brand of courage to this 
effort, as he does to many efforts. I associate myself with 
your goals on immigration, Senator McCain, and pledge to work 
with you and others to achieve them on behalf of our country.
    Senator McCain. Thank you, Mr. Chairman. I appreciate that.
    Chairman Warner. Thank you.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. I would like to 
recognize your courage for even having this hearing.
    Miami's a good place to have it, by the way. It's really a 
pretty place. I'm not running for mayor, so you can relax.
    But this is the summer of hearings. This is the battle 
between the House and the Senate. We're going to different 
places in the country, talking to different people, not so much 
to be informed, I think, as to persuade.
    I really appreciate Chairman Warner allowing the Senate to 
have hearings, because the House started this; and I hope when 
it's all said and done that something good will come from it.
    The reason I think it's important to focus on the military, 
number one, if there was an easy solution to the immigration 
problem, I would have already found it, because I pride myself 
on being the master of the obvious. This is not easy.
    President Bush deserves a lot of credit, in addition to the 
members on this panel and all those who wade into this. Our 
President understands it very well. He comes from a border 
state. He understands that there's more than one thing that we 
have to do to solve this problem.
    It is about jobs. Forty percent of the people who come into 
our country illegally never cross the border. They're visa 
overstays. They have a legal path for a temporary period. They 
come here, they like it, and they won't leave.
    What is it about America that makes people want to cross 
the desert and die to get here? What is it about America that 
people literally risk their lives to come here? What is it 
about America that somebody will flee Cuba when they're a 
teenager to come?
    We know what it's about, and I hope we don't lose that in 
this debate. To me, this is a welcome debate.
    How many countries have this problem of so many people 
wanting to come and be part of it?
    I think it is a testament to who we are, and the way we've 
lived our lives for 200 years; and I hope, when this debate is 
over, that people will still see America as a place they want 
to come.
    To those who engage in this debate, your words are being 
listened to. You're writing a new chapter in American history. 
I hope it's a chapter you'll be proud of. Twenty years from 
now, when this is all long behind us, I hope what you said, 
your grandchildren will be proud of.
    To the politicians who are engaging in this debate, you're 
writing yet another chapter in American history; and I want 
this chapter to end like all chapters have ended, on a positive 
note.
    In the 1890s, it was the Chinese. In the 1920s, it was 
anybody and everybody who came. Now it's mostly Hispanic groups 
coming into the country in large numbers, wanting to be part of 
America.
    We have every right to make sure it's on our terms. We have 
a right as a Nation to make sure that laws are observed, and 
obeyed, but we also have an obligation when we're trying to 
come up with a way to solve this problem not to change who we 
are.
    Mr. Chairman, I think the worst thing we could do as a 
Nation is to tell a young marine in Iraq, General Pace, who's 
fighting and literally risking his life for this country, who 
is an American citizen by virtue of his birth in the U.S. but 
whose parents or grandparents are here illegally, while you're 
off in Iraq, fighting and sacrificing for our country, we made 
your parents and grandparents felons, and we're going to deport 
them.
    That is not a message that needs to be sent. That is not a 
solution to this problem, but that is a proposal on the table. 
The reason we need to have this hearing is to understand that 
the policies we pursue speak volumes about who we are and who 
we want to be.
    I'm honored to be part of this great debate that's been 
long overdue. I want to help our President fix this problem. I 
look forward to working with Senator Kennedy in a bipartisan 
fashion to come up with a solution to a real problem that 
America faces. If the solution does not embrace who America is, 
if the punishment for the crime is disproportionate to the 
crime and doesn't render justice, what good have we achieved?
    We have a hearing today where the Chairman of the Joint 
Chiefs of Staff is a first-generation immigrant whose family 
came here for opportunity. He will be asked questions by a 
United States Senator who fled an oppressive regime when he was 
a teenager. To me, that shows what America's all about, and 
what America will continue to be.
    The answer to the immigration problem lies in our past, and 
our past has been a welcoming society who believes not only in 
the rule of law, but also in justice. Thank you.
    Chairman Warner. Thank you, Senator Graham, for your strong 
leadership on this issue, and the acknowledgment of the 
importance of having our President committed to the need for 
this legislation.
    He, likewise, has been tough and determined on this issue. 
I think, by and large, the group before you today want to stand 
and back him with regard to his goals, which are not really 
just his, but our Nation's goals. Thank you, Senator Graham.
    Senator Martinez.

STATEMENT OF SENATOR MEL MARTINEZ, U.S. SENATOR FROM THE STATE 
                           OF FLORIDA

    Senator Martinez. Mr. Chairman, thank you very much. I 
appreciate so much your courtesy to allow me to participate in 
this hearing. I want to welcome all of you, my dear colleagues, 
to the State of Florida, a place that I'm so proud to 
represent, and particularly the city of Miami, where, under the 
great leadership of Mayor Diaz, we are so proud to host this 
event here today.
    I also want to just extend my thanks to the Chief of the 
Miami Police Department for all of the assistance they have 
provided to make this event possible.
    I'm also extremely proud to be at Miami-Dade College. Helen 
Ferre, Chairman of the Board, and President Padron, who is the 
President of the college, as well as President Montoya, who 
presides over this particular campus, are also here.
    We are all so proud to host this event here at this 
college. It's a place that I think could not provide a more 
fitting backdrop for the debate and the discussion that we're 
having.
    It is a college which provides a way forward to so many 
people who otherwise would not have an opportunity for higher 
education. It also serves a population and a community that, as 
was pointed out to me when I was proud to be a part of the 
commencement exercises this past May, there were at that time 
82 flags on the stage where we were presiding, and those 82 
flags represented the 82 countries that were represented in 
that graduating class that I was addressing that day. That is 
very symbolic.
    This is a college where 8 out of 10 students began their 
lives speaking a language other than English. So, it is 
important that we recognize at this point in time the 
importance of the immigration issue not only to our Nation, but 
very much to the State of Florida, as well.
    This morning in the news, we saw a report where 3 to 6 
million boxes of oranges are going to remain on the trees this 
year because there simply wasn't the labor available to harvest 
that crop.
    That's an economic loss to our State. It is a significant 
loss to the citrus industry, but it also highlights the 
problem. In finding the solution to this issue, while it's 
obvious that we have to protect our border, that we must do all 
that we can, not only to protect the land border between us and 
our southern neighbors in Mexico, but we also have a very big 
border that, as General Pace so well knows, around the State of 
Florida, where there's a lot of opportunity for people to come 
in, in a way that could provide a security threat to our 
Nation.
    It is important that we secure our border, but, beyond 
that, we will not have done our job, we will not have acted 
responsibly if we stop there and don't go forward to also deal 
with the issue of the need that our Nation has for workers, the 
need that our Nation has to have a labor force that can do the 
work that needs to be done in so many industries, not only 
agriculture.
    The hearing today is about the Nation's armed services and 
the fact that we have had over our history such a connection 
between immigrants and service to our Nation.
    I can't help but be reminded of a very early immigrant to 
our Nation, who came just as our Nation was becoming a nation, 
who ended up here as a 15-year-old boy, immigrated here from 
the Caribbean--I relate to that--and within a matter of a very 
few years, became the indispensable right-hand person to 
General George Washington as he was leading our Armed Forces.
    It was Alexander Hamilton, who came from Nevis in the 
Caribbean, to become the indispensable right hand of George 
Washington during the most difficult times over this Nation's 
struggle to become an independent nation.
    I am then more recently reminded by the painful loss of my 
own cousin, Manuel Mesa, who served this country only a very 
few years after arriving in this country from Cuba, and died 
somewhere near Pleiku in Vietnam.
    I remember the searing pain our family felt at that loss, 
his parents, obviously, and sisters and brother, but also the 
fact that all of us recognized that he had died doing what he 
wanted to do. He volunteered to be a member of our Armed 
Forces, and he was proud to serve in Vietnam, in standing up 
for this Nation, for our country.
    One of the other salient points, Mr. Chairman, that this 
debate attempts to address is the issue of human trafficking.
    This very weekend, in the news in this community, we were 
jolted by the tragic learning of the death on the high seas of 
a person that was seeking to enter this country by the 
opportunity provided through a smuggler in a fast boat. In a 
confrontation with the Coast Guard, in which they were trying 
to stop the boat and save lives from this unsafe situation, the 
smugglers continued on their path, not only injuring this 
woman, but then failing to render timely assistance, which 
brought her death.
    Over 6 months ago, the death of a 6-year-old boy, who was 
again in similar circumstances.
    It is important that this bill pass and move forward, 
because we need to stiffen the penalties, which this bill does, 
for human trafficking. It is necessary and it is important.
    Let me just conclude--because I appreciate so much the very 
distinguished panel we have with us today--but just pointing 
out to our guests that just slightly north of here, just a 
couple of blocks, stands the Freedom Tower.
    To those of us who knew it in the 1960s, it was called ``El 
Refugio,'' a place of refuge. For the Cuban-American community, 
it is our Ellis Island. It is the place where it all began.
    I can specifically remember my life in America beginning 
right here in this city, at the airport where I landed this 
morning, on a sunny afternoon in February 1962, my life 
beginning there; and, then, some months later, walking to ``El 
Refugio,'' the Freedom Tower; my little brother, taking him 
there, for the necessary things that had to happen there to 
those who were new to this country.
    It is such a symbolic place to this community, and I think 
that, within the shadows of that building, for us to hold this 
hearing and for me to have an opportunity to participate in it 
is only yet another testament to the power of America, to the 
power of this country and what it stands for, and the beacon of 
opportunity that it is to all in the world; and how proud I am 
to play a role in shaping the immigration laws in this country 
for the future in a way that represents the best of America, 
and the best that we are, in the hopes that we can continue to 
be that great shining city on the hill for many years to come.
    Thank you, Mr. Chairman.
    Senator McCain [presiding]. Thank you very much, Senator 
Martinez. We again want to express our gratitude for the 
important role that you have played. Every morning, you and I, 
and Senator Graham, Senator Kennedy, and others, who gather to 
work on the strategy for the day and the week. We thank you for 
your incredible participation and what you bring to the debate. 
I thank you.
    On our first panel are the Honorable David Chu, who is the 
Under Secretary of Defense for Personnel and Readiness, and 
General Peter Pace, who is, as we all know, the Chairman of the 
Joint Chiefs of Staff.
    Secretary Chu, thank you. Would you begin? As always, your 
entire statement will be made part of the record.

 STATEMENT OF HON. DAVID S.C. CHU, UNDER SECRETARY OF DEFENSE 
                  FOR PERSONNEL AND READINESS

    Secretary Chu. Thank you, Mr. Chairman and members of the 
committee. It's a privilege to be here this morning.
    We are, as is often observed, a Nation of immigrants, and 
the service of immigrants in the Nation's military is an 
honored tradition. That includes noncitizens.
    Noncitizens have served in America's Armed Forces since the 
earliest days of the Republic. In more recent decades, I think 
members of this committee can remember the Lodge Act, and 
subsequent legislation, which allowed the military to recruit 
from citizens formerly of Eastern European countries, but not 
yet citizens of the United States.
    Likewise, the United States Navy, right through the early 
1990s, continued to recruit citizens of the Philippines for its 
forces.
    Congress has recently revised the statutes governing the 
Department of Defense (DOD) to consolidate the authority for 
the recruitment of noncitizens, permitting, for all military 
Services, those who are legal permanent residents of the United 
States, to join.
    Of course, under the President's Executive order, while 
under this declaration of national emergency, noncitizens enjoy 
expedited citizenship procedures. Your changes in Congress have 
further strengthened their ability to apply and be considered 
rapidly for citizenship.
    I recognize that Congress and the Senate bill pending 
action are considering further changes with provisions that 
would affect the military service of noncitizens.
    Today, we have on the order of 25,000 noncitizens serving 
in the Active Forces of the United States military. I should 
note that over 10,000 of these individuals score at what's 
called 2/2, or better, on the foreign language proficiency 
test. That means they score well enough to be able to use that 
language in an effective way to support our military 
operations.
    One of the benefits of recruiting noncitizens to the 
military force of the United States is to be able to have a 
more diverse, and, specifically, a linguistically more 
competent military force than we could otherwise recruit.
    I should note that nearly 20,000 members of the Reserve 
components are, likewise, noncitizens, including, I should 
report, approximately 1 percent of the Army National Guard.
    The chairman's opening statement mentioned the current 
service of the Army National Guard. Its most recent 
contribution to the Nation's security, of course, is to staff 
the effort to secure the southwestern border of the United 
States.
    I'm pleased to report that as of today there are just under 
3,000 Army National Guard personnel serving in that capacity: 
over 300 at the Joint Task Force Headquarters; nearly a 
thousand already assigned to the Customs and Border Patrol 
missions; and just under 1,600 who are in the process of 
joining that force.
    I know members of this committee are familiar with the 
Army's 09 Lima Program, as it's called, after the military 
occupational specialty (MOS) program that is employed.
    This represented a specific effort by the Army to recruit 
heritage speakers of languages in high demand in current 
operations, especially Arabic, Pashtu, and Dari.
    With over 300 members of this group, the Army seeks to 
expand this military occupational specialty. I should report 
approximately three-quarters of these individuals are not 
citizens of the United States, although many have applied for 
citizenship, and most of those who have applied have completed 
that process within a year.
    To sum up, noncitizens have long served in the American 
military. They continue to serve to this day. They serve well 
in the American military, and they supply critical capacities 
that are essential to our current military operations.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Chu follows:]

             Prepared Statement by The Hon. David S.C. Chu

    Mr. Chairman, distinguished members of the committee, I am pleased 
to be here today to discuss the role of immigrants in our Armed Forces. 
Our great Nation--a Nation of immigrants--has a long and distinguished 
history of the valor and sacrifices made by those who call the United 
States home, but are not yet citizens.
    I want to focus my remarks today on two areas surrounding 
immigrants in the Armed Forces. First, I want to talk about the 
contributions noncitizens are making in today's military. Second, I 
want to discuss future issues regarding the enlistment of noncitizens.
    Since the Revolutionary War, certain noncitizens have been eligible 
to enlist in the military. noncitizens have served in the U.S. Armed 
Forces for much of our country's history, including the War of 1812, 
the Civil War, and both World Wars. Almost half of Army enlistees in 
the 1840s were immigrants (noncitizens), and more than 660,000 military 
veterans became citizens through naturalization between 1862 and 2000. 
The Lodge Act of 1950 (and subsequent Acts in 1951, 1955, and 1957), 
for example, permitted noncitizen Eastern Europeans to enlist between 
1950 and 1959.
    Another example is the Navy's recruitment of Filipino nationals. 
The United States officially began recruiting Filipino nationals into 
the U.S. Navy in the late 1940s, when it signed the Military Bases 
Agreement of 1947 allowing U.S. military bases in the Philippines. 
Changes in the agreement and policy capped the number of Filipino 
enlistments at 1,000 in 1952, 2,000 in 1954, and 400 from 1973 on. Navy 
policy restricted Filipinos to the steward and mess attendant ratings 
from WWII until 1973. In total, over 35,000 Filipinos enlisted in the 
Navy through the program between 1952 and 1991. The Navy stopped 
recruiting Filipino nationals and closed its recruiting facilities in 
the region in 1992 because of the end of the Military Bases Agreement, 
base closures, and force reduction measures.
    Prior to the National Defense Authorization Act (NDAA) for Fiscal 
Year 2006, title 10, United States Code, sections 3253 and 8253, stated 
that to be eligible for enlistment in the Army or Air Force in time of 
peace, an individual must be an American citizen or lawfully admitted 
to the United States for permanent residence--that is, possess the so-
called Green Card. While there was no equivalent statute limiting 
enlistment in the Navy and Marine Corps, the same citizenship 
requirements were applied to those Services as a matter of policy.
    The NDAA for Fiscal Year 2006 repealed the Army and Air Force 
specific sections of title 10, and established a uniform citizenship or 
residency requirement for enlistment in the Armed Forces of the United 
States in section 504 of title 10. Enlistment is now authorized for:

          A national of the United States
          An alien who is lawfully admitted for permanent residence 
        (green card)
          A person enlisting in the military under one the following 
        compacts:

                  The Compact of Free Association between the 
                Federated States of Micronesia and the United States
                  The Compact of Free Association between the Republic 
                of the Marshall Islands and the United States
                  The Compact of Free Association between Palau and 
                the United States

    Notably, that amendment to section 504 also establishes that ``. . 
. the Secretary concerned may authorize the enlistment of a person 
[other than one listed above] if the Secretary determines that such 
enlistment is vital to the national interest.''
    Since September 11, 2001, there have been several policy changes 
complementary to both the current and pending legislation that may 
encourage more noncitizens to consider military service. For example, 
today's servicemembers are eligible for expedited citizenship, and the 
military services have worked with U.S. Citizenship and Immigration 
Services (USCIS) to streamline the citizenship application process for 
servicemembers. In fact, we find that many servicemembers attain their 
citizenship while serving. President Bush's executive order allowing 
noncitizens to apply for citizenship after only 1 day of Active-Duty 
military service is still in effect.
    Further, the NDAA for Fiscal Year 2004 permanently modified section 
328 of the Immigration and Nationality Act, reducing the peacetime 
waiting period before application for citizenship from 3 years to 1 
year of honorable Active-Duty service. Under current Department of 
Defense (DOD) policy, applicants may be granted emergency leave and 
priority on government transportation if needed to complete citizenship 
processing. The military also has initiated several new programs, 
including opportunities for those with language skills, which may hold 
particular appeal for noncitizens.
    In addition, the 2004 NDAA eliminated all application fees for 
noncitizens in the military and allowed for the completion of 
citizenship applications to be extended to U.S. consulates, embassies, 
and overseas U.S. military installations effective October 1, 2004. 
Previously, Service personnel were urged to delay their applications 
until they were stateside, to avoid missed appointments with 
immigration officials or missed mailings.
    Today, more than 40,000 noncitizens serve in the military (Active 
and Reserve) and about 8,000 permanent resident aliens enlist for 
Active-Duty every year. They serve worldwide in all Services and in a 
variety of jobs. They represent the United States both at home and 
abroad--even on the front lines in the global war on terrorism. Over 
25,000 have earned citizenship while serving, and over 100 have made 
the ultimate sacrifice in war and have given their lives for this 
nation since September 11, 2001.
    As you can see, noncitizens are a vital part of our country's 
military. Those who serve are patriotic, with over 80 percent 
completing their initial enlistment obligation, compared with 70 
percent for citizens. noncitizen recruits continue to provide the 
Services with a richly diverse force in terms of race/ethnicity, 
language, and culture.
    Section 1059 of the NDAA for 2006 also provided for up to 50 
``Special Immigrant Translators'' per year--a category afforded special 
treatment to recognize their sacrifices for national defense in Iraq 
and Afghanistan--to be granted lawful permanent resident status, along 
with their families. DOD and USCIS are currently implementing this 
provision.
    According to an April 2006 study from the National Immigration Law 
Center, there are an estimated 50,000 to 65,000 undocumented alien 
young adults who entered the U.S. at an early age and graduate from 
high school each year, many of whom are bright, energetic, and 
potentially interested in military service. They include many who have 
participated in high school Junior Reserve Officers' Training Corps 
programs. Under current law, these young people are not eligible to 
enlist in the military, until and unless the armed services determine 
that it is vital to the national interest as provided by section 504.
    If their parents are undocumented or in immigration limbo, most of 
these young people have no mechanism to obtain legal residency even if 
they have lived most of their lives here. Yet many of these young 
people may wish to join the military, and have the attributes needed -- 
education, aptitude, fitness, and moral qualifications. In fact, many 
are high school diploma graduates, and may have fluent language 
skills--both in English and their native language. Provisions of S. 
2611, such as the Development, Relief, and Education for Alien Minors 
Act, would provide these young people the opportunity of serving the 
United States in uniform.
    In his May 15, 2006 speech setting forth his view on immigration 
reform, President Bush underscored the fact that certain illegal 
immigrants with long-established roots in America should have an 
opportunity to pursue citizenship:

          ``I believe that illegal immigrants who have roots in our 
        country and want to stay should have to pay a meaningful 
        penalty for breaking the law, to pay their taxes, to learn 
        English, and to work in a job for a number of years. People who 
        meet these conditions should be able to apply for citizenship, 
        but approval would not be automatic, and they will have to wait 
        in line behind those who played by the rules and followed the 
        law. What I've just described is not amnesty, it is a way for 
        those who have broken the law to pay their debt to society, and 
        demonstrate the character that makes a good citizen.''

    Thank you, this concludes my statement. I would be happy to answer 
any questions from the committee members.

    Senator McCain. Thank you.
    General Pace, welcome.

 STATEMENT OF GEN. PETER PACE, USMC, CHAIRMAN, JOINT CHIEFS OF 
                             STAFF

    General Pace. Thank you, sir.
    Senator McCain, thank you, sir, to you, and Chairman 
Warner, Senator Kennedy, Senator Graham, and Senator Martinez. 
This is truly a distinct honor for me to be with you today.
    When I received the letter of invitation from Chairman 
Warner and Senator Levin, they were kind enough to say in their 
letter that if my schedule did not permit me to be here, that I 
could send a representative.
    There is no place today that I would rather be than sitting 
here before you representing the thousands of U.S. 
servicemembers, both those who have become citizens through 
their service, and those who are seeking to become citizens. 
This is an incredible honor for me, both professionally and 
personally.
    We have had thousands of servicemembers--since September 
11, some 26,000-plus--who have served in our Armed Forces and 
have become citizens. Currently, we have another 3,800 who have 
applied, and that process is ongoing. We look forward to having 
the opportunity to swear them in as new citizens.
    Just 14,000 in the last 2 years have become citizens 
through service to their country. Each year, over 8,000 non-
U.S. citizens join our Armed Forces, and they bring with them 
an incredible diversity; intellectual diversity, cultural 
diversity, and an enormous amount of courage.
    I know the second panel has one of the numerous Medal of 
Honor recipients who would like to have a chance to sit before 
you, and we do him great honor and respect by having him 
represent so many.
    As you mentioned, Senator Kennedy, just shy of 200 awards, 
significant awards, have gone to non-U.S. citizens in this 
current war.
    As was also mentioned, General Shalikashvili left Poland at 
age 16, came to the United States and became Chairman of the 
Joint Chiefs of Staff. General Powell, who is the son of 
Jamaican immigrants; and now General Pace, son of an Italian 
immigrant.
    This country has given to me and my family incredible 
opportunity. My dad came here, sometimes worked three jobs, but 
the jobs were there for him, and the opportunity was there for 
him. He and my mom together provided the opportunity to their 
four children.
    My older sister earned a master's degree and a law degree. 
She got a law degree at age 60, just because she wanted to, and 
she could in this country.
    My older brother went to the Naval Academy, spent 6 years 
in the United States Marine Corps, was twice wounded in combat, 
and earned the Silver Star medal. He is still my personal hero.
    I've had an incredible run myself.
    Our younger brother, Tom, earned his master's degree, a law 
degree, and is a very successful businessman. There is no other 
country on the planet that affords that kind of opportunity to 
those who come here.
    I am still on active duty today for one primary reason, and 
that is, I still owe those who served with me in Vietnam.
    I made a promise to Lance Corporal Guido Farinaro, a young 
man from Bethpage, New York, who had gone to Chaminade High 
School. Every other member of his class, to my knowledge, went 
to college.
    Guido was a first-generation American, and Guido wanted to 
serve his country before he went to college. Guido was the 
first marine I lost in combat. I promised Guido that as long as 
I had the strength, I would serve this country.
    He and so many others who have given their lives that we 
might hold these kind of hearings--as Chairman of Joint Chiefs 
of Staff, I sit in front of the Senate of the United States to 
answer questions--that we might do what we do here today and in 
Congress so often. We owe so much to so many of our immigrant 
families.
    Lastly, Chairman Warner, you mentioned, sir, our Guard on 
the border. We are so proud of the National Guard. Last year 
alone, whether it was tsunami relief in Indonesia, hurricane 
relief along our coasts, earthquake relief in Pakistan, or 
currently all that they're doing to assist our southern border 
States, our Guard has simply performed magnificently.
    Dr. Chu mentioned the numbers, and discussed what they're 
doing right now. I will not repeat that, but they are doing a 
fabulous job for our country.
    It's a pleasure to be here in front of you gentlemen, and 
to answer your questions. Thank you.
    Chairman Warner [presiding]. I believe those who are now 
following these hearings, whether in this room or from afar, 
recognize why we decided as a committee to hold the hearing and 
to have you as our first witness, General.
    I've known the General ever since the day I took the office 
as Secretary of the Navy. He was a young captain in the 
Marines, and he was at that ceremony that day, and we've been 
bonded ever since.
    I cannot tell you the emotion I felt as you were speaking, 
and I apologize. I just received a call from the White House, 
again stressing the importance of this hearing, from the 
National Security Advisor. I had to step out, but I was able to 
hear it, and I thank you, sir.
    General Pace. Thank you, sir.
    Senator Martinez. Chairman Warner.
    Chairman Warner. Yes.
    Senator Martinez. I failed during my initial remarks to 
introduce a group that's here, and I think it's very relevant 
to the hearing, as well. It's a group of Cuban-American 
veterans who served our Nation honorably in the Armed Forces, 
and are now continuing to be very active in the community. They 
are here to watch our hearing today.
    I want to give them a special welcome to our hearing.
    Senator McCain. Maybe they could stand.
    [Cuban-American veterans recognized.]
    Chairman Warner. We'll now go to a 6-minute round of 
questions, and I'm going to ask Senator McCain to lead off with 
those questions.
    Senator McCain. Thank you very much, Mr. Chairman. Thank 
you, Secretary Chu, and thank you, General Pace, for being here 
today.
    General Pace, all of us are very moved by your heartfelt 
statement.
    Secretary Chu, have you spoken with servicemen who were 
working towards citizenship who have already earned their 
citizenship while serving?
    Secretary Chu. Yes, sir, I have.
    Senator McCain. What reasons do they give for wanting to 
serve in the military and gain citizenship?
    Secretary Chu. The first reason, typically, is they feel, 
just as General Pace's comments underscored, an obligation, a 
debt, a sense of service to this country. That tends to be 
often the principal reason.
    They, of course, would like to regularize their 
citizenship; and, under expedited procedures now in effect, 
they can do so quickly.
    Senator McCain. General Pace, on July 4, I understand 76 
soldiers serving in Iraq swore their oath of allegiance to 
become citizens of the United States. I've heard reports about 
ceremonies like this that have become a common occurrence in 
the combat theater.
    How many soldiers, sailors, airmen, and marines typically 
earn their citizenship each month in the combat area?
    General Pace. Sir, it's about 40 per month, usually in 
ceremonies like General Casey was able to conduct in Baghdad at 
the beginning of this month. There were 70-plus in Baghdad, 
some 60-plus in Afghanistan, but over the course of the last 2 
years, it's averaged out about 40 per month, sir, in the combat 
zone.
    Senator McCain. What impact does this have?
    General Pace. Sir, it has enormous impact. It just sends a 
thrill through your body when you stand there next to a fellow 
soldier or a marine, and you're in combat, and you see the 
energy and the difficulties of the duties that they're 
conducting; and, in the middle of all of that, they stand 
there, proud, and put their hand in the air and say, they love 
this country as much as anybody who was born here. They want to 
serve it as honorably as anybody who was born here.
    It just makes you proud, as an American citizen, to be able 
to open the doors and say, welcome, we are proud to be with 
you, and for them to say to you that they admire who you are, 
and they want to serve alongside you and be like you, it just 
energizes the whole unit to have that happen.
    Senator McCain. Thank you, General Pace. I hope that every 
American has an opportunity to have viewed your statement here 
today.
    I thank you, Mr. Chairman.
    Chairman Warner. I thank you very much.
    Senator Kennedy.
    Senator Kennedy. Thank you, both. I must say, General Pace, 
you had an enormously moving and real statement and comments, 
and you said it so well. We just hope that our colleagues in 
Congress that are concerned could listen to it, because it 
really is what the legislation is about. We thank you so much 
for your service to the country, and for continuing to meet 
that commitment to that young courageous soldier that you 
commented on.
    General Pace. Thank you, sir.
    Chairman Warner. Might I suggest that for those members of 
Congress who weren't able to see it, those constituents that 
did see it should call and share with their member the 
sincerity of those remarks, and how those remarks are so 
heartfelt, not only to you, but families like yours all over 
this Nation.
    General Pace. Thank you, sir.
    Senator Kennedy. That's why he's our chairman. I agree with 
him. Thank you.
    Chairman Warner. Thank you, Senator.
    Senator Kennedy. Let me ask General Pace several questions 
here. There are some commentators who wonder whether we should 
allow noncitizens to serve in the military. They question their 
loyalty. Some even go so far as to say that limiting military 
service to citizens would reduce desertions and treason. You've 
been in the armed services a long time, and have served with 
and commanded immigrants. Are they good, dependable soldiers? 
Are they good, dependable marines?
    General Pace. Sir, they are extremely dependable. I can get 
you the precise numbers, but I do know from historical 
background that some 8, 9, or 10 percent fewer immigrants wash 
out of our initial training programs than do those who are 
currently citizens. Some 10 percent or more than those who are 
currently citizens complete their first initial period of 
obligated service to the country.
    Senator Kennedy. Those are important numbers, those 
completing the training course, and then completing their 
service, are impressive.
    So, you've found that they're reliable and they're 
disciplined. Are they courageous in battle? You've been in 
battle, you've had every kind of position, as the chairman has 
pointed out in his introduction.
    General Pace. Sir, they are reliable, they are courageous. 
As you have pointed out, or one of the senators has pointed 
out, more than 20 percent of those who have received our 
Nation's highest award for heroism in combat have been 
immigrants.
    Not only are they courageous, but they bring, as I 
mentioned, and many of you have mentioned, a diversity, 
especially in a current environment where cultural awareness, 
language skills, and just the family environment from which 
they come, are so important to our understanding of the enemy 
and our ability to deal with them.
    Senator Kennedy. I'm going to come to that in just a 
moment, but Americans, therefore, shouldn't be concerned about 
their loyalty?
    General Pace. They should not. That's correct, sir.
    Senator Kennedy. Have there been increases in desertions 
because of immigrants in the service?
    General Pace. Not to my knowledge, no.
    Senator Kennedy. Now, on the issue of language ability and 
cultural understanding, our enemies don't speak or fight in 
English, at least the ones that we're involved in today.
    I think you've mentioned this but can you elaborate just 
briefly on some of the special sorts of recruitment programs 
that the military offers to a person with a certain language 
skill, and how important that is in today's world? Where does 
that fit, in terms of a priority?
    General Pace. Sir, it's a very high priority. In fact, the 
United States Army has a program that Dr. Chu mentioned, that 
deals with interpreters who are able to join the Army, and go 
forward with our units into combat and provide the very 
essential link of being able to talk, in a culturally aware 
way, with citizens in a town like Fallujah, Iraq, for example, 
where the understanding, not only of what's being said, but 
what's not being said, is so important. Only someone with 
cultural background can do that.
    We have currently, I think it's 282 individuals who are in 
that program. We are looking, in all the Services, to entice 
others who would like to serve this country, to join, so we can 
take advantage of their very unique skills.
    Senator Kennedy. I was listening to Senator Martinez talk 
about 82 flags being here at the time of the graduation, and 
we're very mindful about where our service men and women are 
serving, in all kinds of different areas, different cultures 
and language; and to hear your stressing the importance of both 
language, training, and cultural understanding and awareness as 
being important is, I think, very significant.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Are your parents still alive, General Pace?
    General Pace. My mother is, sir. My father died when I was 
a lieutenant colonel.
    Senator Graham. I'm just imagining that she's bubbling over 
with pride; and I'm sure your dad's looking down, very proud, 
too. It was a great statement. I think it's what America is 
about. It's very hard to talk about your family, even if you're 
a marine. Marines cry, that makes you a stronger marine, not a 
weaker marine.
    General Pace. When you have Italian blood in you, yes, sir, 
sometimes it wells up and grabs your heart.
    Thank you, sir.
    Senator Graham. What percentage of the military is 
Hispanic? Do you know, Dr. Chu?
    Secretary Chu. I would guess it is around----
    Chairman Warner. Perhaps you better not make a guess. If 
you can provide for the record an accurate number.
    Secretary Chu. I'll provide that.
    Senator Graham. Do you know what percentage of the Marine 
Corps is Hispanic, General Pace?
    General Pace. Sir, I do not. I could guess, but I'll get 
you the records, sir.
    Senator McCain. Could I ask, Dr. Chu, roughly what you 
think it is?
    Secretary Chu. My belief is it would be on the order of 8 
percent, or so; but I'll get you the exact numbers.
    Chairman Warner. I didn't hear it. What did he say?
    Secretary Chu. Approximately 8 percent would be my 
recollection, but let me get you the exact numbers.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Graham. The reason I mention that is, it's been my 
impression--growing up in South Carolina, it wasn't much of a 
Hispanic community, to be honest with you. The first Hispanic 
community I was associated with was in the Air Force. I guess 
we can tell stories here. I have the microphone, so I'll tell a 
story.
    The first person I met, General Pace, when I got to active 
duty, was Dan Garza. I don't know if Dan's still out there, but 
he was the noncommissioned officer-in-charge (NCOIC) of our 
office. You could eat off his uniform. The guy was immaculate. 
He was the most prideful-looking military member I've seen yet.
    He took a captain under his wing, and made sure I was not 
mistreated by the other NCOs on the base, which was very 
helpful to me. Through that association, I have found that 
there's so many different cultures that come into our military, 
but we're here talking, basically, about an illegal immigration 
problem that is disproportionately Hispanic.
    My time in the military has convinced me that not only--
whatever percentage it is, I have found no better group to 
serve with than our Hispanic members of the military.
    I would dare say, General Pace, that some members of the 
Marine Corps who came here as children, or maybe were born here 
have parents who are undocumented.
    Do you believe that's a reality?
    General Pace. I do, sir.
    Senator Graham. What message would we be sending to those 
young marines if those of us in Congress with the power we have 
made their parents or grandparents felons?
    General Pace. Sir, I don't know the exact message you would 
be sending to them; but I do know that those who are in 
uniform, fighting for the values of this country, would look to 
those in leadership to find an honorable path for those who 
would like to live here.
    Senator Graham. Thank you for your service.
    General Pace. Yes, sir.
    Senator Graham. No further questions.
    Chairman Warner. Thank you very much.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    General Pace, I thank you very much for your statement and 
for your comments; and the same to you, Secretary Chu.
    It was very moving to hear your comments about your family, 
General Pace, and what they went through in order for you to be 
able to do the things that you've been able to accomplish in 
your life. I, like you, am filled with a great sense of service 
and the need for giving back, which I know is much of the 
feeling that the veterans here today, and so many others in my 
community, feel.
    I don't know which of you might know the answer to this, 
but I know that from time to time we have granted citizenship 
to those who have paid the ultimate price on the field of 
battle. I wonder if, whichever one of you wants to handle the 
question, could talk to us a little bit about that; how that is 
done, and how many, if you know.
    General Pace. Sir, I'll start; and Dr. Chu can add, if he 
would like to.
    We've had just over a hundred non-U.S. citizens die since 
September 11, in uniform, defending our country.
    The process, then, is that their families are all then 
eligible for citizenship. If their families apply for 
citizenship, then that process is brought forward.
    My understanding is that just over 70 of the families have 
applied, and those individual deceased servicemembers have been 
granted, citizenship posthumously.
    I would ask Dr. Chu if he has anything further.
    Secretary Chu. Yes. What's interesting is that they come 
from all over the world; a significant number from Latin 
America, I grant, but some from Africa, for example.
    These upgraded procedures which Congress and the 
administration put in place have greatly facilitated this 
process. It extends, of course, the opportunity of citizenship 
to the families, as well. I think that is most gratefully 
received, a great step on the part of our Nation.
    Senator Martinez. Thank you, Mr. Chairman. I don't have any 
other questions.
    Chairman Warner. Thank you, Senator Martinez.
    Senator Kennedy. That isn't the only way, losing their 
life, to obtain citizenship if they're in the Service?
    Secretary Chu. No, sir; you're absolutely right.
    Senator Kennedy. If you could finish the concept. So, if 
they're in the Service, and if they have their resident green 
card, or if they're permanent resident aliens, and in the 
military, or if they're in the Guard or Reserve, we ought to 
change that to permit individuals to be able to become citizens 
within a year, but they have to complete their Service.
    Secretary Chu. Actually, sir, the 1-year period of service 
is the peacetime standard. Under the declaration of national 
emergency from the President, and his subsequent executive 
order on this point, any servicemember who is serving 
honorably, which means you only have to serve at least one day, 
may apply for citizenship.
    The Customs and Immigration Service (CIS) has worked hard 
to improve the procedures through which they complete that 
application. The processing application itself has been cut 
down to approximately 60 days. It is possible now for a serving 
servicemember to complete his or her citizenship process in 
less than 1 year from initiation.
    Senator Kennedy. We waive the fees?
    Secretary Chu. We waive the fees, also.
    Senator Kennedy. We also permitted them to be able to do 
that overseas, rather than having to return, so that they could 
be in combat at the time, and they would be able to do that 
overseas, even in areas which are in combat?
    Secretary Chu. Yes, sir, that is correct. CIS--Dr. 
Gonzalez, can speak to this in his testimony--has further 
facilitated the process of doing the paperwork, and so forth.
    Senator Kennedy. I thank you. It's important that we've 
tried to express our appreciation to those service men and 
women who are going into combat, have been in combat, in 
danger--maybe not danger, but of going into combat, to be able 
to be treated fairly and equitably, and to have that service 
recognized; and I thank you.
    Secretary Chu. Thank you.
    Chairman Warner. Thank you, Senator Kennedy.
    This document was just been handed to me, prepared by one 
Ester Olavarria, who took her original papers here in the 
Freedom Tower.
    Would you stand, please? I don't believe she's recognized.
    Senator McCain. She has the additional burden of having to 
work for Senator Kennedy. [Laughter.]
    Chairman Warner. We understand that your mother's proudly 
here to join us. We would thank you for coming.
    All of us in the United States Senate are very grateful to 
our staffs. A number of our staffs came down last night to 
prepare for this hearing. So far as I know--I've just 
inquired--all of the mechanicals, the acoustics, and everything 
else, is working fine; and we thank the university here, and so 
forth.
    These facts which were given to us, which I'll put in the 
record, are rather interesting: noncitizens killed in action 
during Iraq and Afghanistan: Army, 60; Marine Corps, 38; Navy, 
3. Total, 101.
    Active-duty citizenship status in the U.S. military as of 
May 2006: non-U.S. citizens, 23,127, 2 percent; officers, non-
U.S. citizens, 291. Total, then, of non-U.S. citizens serving 
in our forces today, 23,418; roughly just under 2 percent.
    America owes a great obligation, and what our duty is now 
is to make sure that we prepare the proper laws to enable this 
magnificent contribution to continue with regard to the Armed 
Forces of the United States.
    This panel needs to return to the DOD. I'd ask my 
colleagues, are there other questions?
    Senator McCain. Mr. Chairman, I just had one question for 
General Pace.
    General, the Guard is being dispatched to the border in 
various border States. Is that having any effect on Guard 
readiness, maintenance, and training? What's your view of this 
evolution that's taking place?
    General Pace. Sir, I've talked at great length with the 
leadership of the Guard, to include, early this month, all the 
Guard Adjutants General gathered together in Williamsburg, 
Virginia. I spent a couple of hours with them.
    This is not a readiness problem, sir. Having 6,000 out of 
some 400,000-plus Army and National Guard on the borders is not 
a readiness problem. In fact, it's a point of great pride to 
the National Guard that they were able to provide support to 
several authorities in those States.
    Senator McCain. The job that they're doing, are they 
prepared to do that?
    General Pace. Sir, they are. Not only are they prepared to 
do it, but it actually enhances their skills, because they'll 
be doing the jobs that they're in the military to do.
    This will be active duty for training, it will give them a 
chance to hone their skills, instead of doing it in their own 
home States, perhaps, just as an exercise, instead of being 
able to add value, as they are.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Warner. Thank you. I wanted to ask a follow-up 
question. The relationship between the Governor--and the 
Governor is, so to speak, the commander in chief of the Guard 
in his or her State, as the case may be--are those 
relationships working out, given you have several Governors in 
this equation?
    General Pace. Sir, they have worked out. Inside of each 
State, there's a joint task force that's working for the 
Governor; and, then, as National Guard members from other 
States come into those States, there are memorandums of 
agreement between the Governors of the States that have 
established how they'll serve. That's all done before the first 
soldier gets on a plane or a bus to go.
    Chairman Warner. That's fine. Secretary Chu, a follow-up on 
that question. As you well know, you're trying to manage an 
unusual set of dynamics, in that many of these guardsmen are 
taking their normal, should we say, summer rotation, on to an 
active status. That could be 30 days or less, so, some of these 
people will come for short periods of time, which the general 
said is very valuable training, equal to that, which they could 
perform in their own States.
    As a matter of fact, in my visits with the Guard on this, 
they say, so often during the summer we have to go out and 
build a bridge and then tear it down, because we have to clean 
up where we've been practicing. Here, we build a bridge, and 
the bridge stays up. Whatever is being done becomes a permanent 
part of the security system that we're putting in on the 
border.
    Could you elaborate, first, on the rotation base, and the 
ability to handle that, and how those commissions are training 
them as well, if not better, and to some of the opportunities 
in their respective States or other training scenarios?
    Secretary Chu. I'd be delighted to, sir. Let me take the 
second part first, the value of training.
    As you've suggested, from the Guard perspective, it's so 
much more rewarding to be doing something that you think has a 
direct mission effect in sustaining the Nation. I think that's 
the core of what we offer here. To the enthusiasm that you see 
in the field on the part of the guardsmen and guardswomen, 
that's why they're so positive in their response.
    To the first issue, some personnel will stay longer, and 
they will be volunteers. They will be, typically, in various 
pay statuses like that which we call active duty for special 
work. They'll provide, essentially, the cadre, the reception 
capability, the coordination of effort, the ongoing 
infrastructure, so to speak, for the larger mission. The 
majority will be coming in on short rotational periods, just as 
you described.
    Chairman Warner. Now, you're integrating that rotational 
base very carefully with those Guard units which have just 
returned from assignments in Iraq or Afghanistan, are you not, 
so as not to impact on the families and the guardsmen?
    Secretary Chu. Yes, sir. As I emphasized, those who are 
staying longer will be volunteers. They will have made a choice 
that they would like to do this. A number of people would like 
to do this. It's another chance to contribute. The Guard is 
terrific in contributions it has been making to our country's 
interest, as I know you appreciate.
    For those who are coming for the so-called summer training, 
we had already put into place right after the mobilizations of 
September 11, 2001, a hiatus, so to speak, after they return 
from Iraq or Afghanistan, or other deployments, before they 
again do their monthly drills, and before they go back to so-
called summer training. That is already a built-in part of our 
apparatus.
    Chairman Warner. I thank both witnesses. I'm going to 
forebear from asking a series of technical questions. I'll 
consider submitting in the record, and invite my colleagues 
here with me today, and other colleagues on the committee, to 
submit for the record questions regarding this important 
hearing between now and the close of business on Thursday, for 
the witnesses to give us written replies.
    Gentlemen, we thank you very much for making this long trip 
down this morning and back to the DOD.
    General, you have made history, sir. I say that as a former 
marine myself, and with deepest respect for you.
    General Pace. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, sir. We'll take a 4-minute 
stretch. [Recess.]
    Thank you, ladies and gentlemen. We'll now have our second 
panel. I now invite this panel to come forward.
    We welcome Dr. Emilio Gonzalez, Director of the United 
States Citizenship and Immigration Service (USCIS). That's his 
current post, but, prior to that, he had a distinguished career 
as an international affairs expert, and served 26 years on 
active duty in the United States Army after immigrating to the 
United States.
    Following his military career, Dr. Gonzalez served as a 
national security and foreign policy advisor to President Bush, 
and was Director for Western Hemisphere Affairs on the National 
Security Council. Now, I just spoke to him, and may I add that 
one other bit of information that you just gave me about 
General Pace?
    Go ahead.
    Mr. Gonzalez. Yes, sir. During the period where I served at 
the U.S. Southern Command, I was a Chief of Special Assistants 
for General Pace; so, I've had an opportunity to serve with the 
General upclose and personal, if you will.
    What you saw today was the reason he is the Chairman of the 
Joint Chiefs of Staff. I've never come across a finer 
individual, a better officer, and a greater leader in the 26 
years that I've served on active duty.
    Chairman Warner. Thank you, Doctor. I compliment you on 
your written statement, the historical perspectives that you 
offered about immigrant heroes in the revolutionary and civil 
wars, at the Alamo, at Pearl Harbor, in Vietnam, and Iraq; and 
specifically about Sergeant Rafael Peralta, who died in 
Fallujah while saving the lives of his fellow marines.
    These wonderful historical perspectives are timely 
reminders of the role of immigrants in the Armed Forces, and 
their commitment to duty, honor, and country.
    We welcome, also, Alfred Rascon, a very distinguished 
member of our United States military. He immigrated with his 
family from Mexico as a child, and enlisted in the Army in 
1963.
    He was belatedly--that is, many years after the fact--given 
a Medal of Honor by the President of the United States and your 
Nation--that was in 2000--for your heroic service as a combat 
medic with the 173rd Airborne Brigade in Vietnam in 1966.
    After a career with the Department of Justice, and the Drug 
Enforcement Agency (DEA), and Immigration and Naturalization 
Services (INS), he was appointed as Director of the Selective 
Service in 2001.
    Shortly after the attacks on September 11, however, as a 
U.S. Army reservist she voluntarily returned to active duty, 
and deployed to both Iraq and Afghanistan, motivating and 
supporting soldiers in the field. We thank you, and our Nation 
thanks you, Mr. Rascon, for your service.
    We also welcome Professor Margaret D. Stock. Professor 
Stock is a graduate of Harvard and Radcliffe Colleges, the 
Harvard Law School, and the John F. Kennedy School of 
Government.
    She served on active duty in the United States Army from 
1986 to 1988, and has continued to serve in the U.S. Army 
Reserve, achieving the rank of lieutenant colonel, and now 
instructing in the Department of Social Services at the United 
States Military Academy at West Point.
    Professor Stock has written extensively on immigration law 
and issues affecting immigrant military members who serve and 
those who wish to serve in the Armed Forces. Thank you all for 
joining us today.
    Do you have any comments, Senator Kennedy?
    Senator Kennedy. No. I just welcome the panel.
    Chairman Warner. Any comments of my colleagues? If not, 
then we'll ask you to lead off, Director Gonzalez.
    Your written statements--and all of you prepared excellent 
written statements--will be put into the record in the full 
text. So, there will be times for you to shorten some of your 
remarks, but knowing full well that the entire statement is in 
the record.
    Thank you, Director.

STATEMENT OF EMILIO T. GONZALEZ, DIRECTOR, U.S. CITIZENSHIP AND 
                      IMMIGRATION SERVICES

    Mr. Gonzalez. Yes, sir. Thank you, Mr. Chairman, Senator 
Kennedy, Senator McCain, Senator Graham, and Senator Martinez.
    My name is Emilio Gonzalez, and I'm the Director of the 
United States Citizenship and Immigration Services. Thank you 
for the opportunity to appear before this Committee on Armed 
Services today to testify about the contributions of immigrant 
soldiers to our Nation's Armed Forces, and describe 
improvements to USCIS processes and operations designed to 
facilitate the expedient naturalization of immigrant 
servicemembers as new citizens.
    As an immigrant to our country, and as a veteran of her 
Army, I can relate countless stories of what my service means 
to me, how it affected me personally, and positively shaped my 
life. However, my story is only one of many when compared to 
the more than 45,000 nonimmigrant soldiers, Active and Reserve, 
currently serving across the world, and the hundreds of 
thousands of immigrants who have served under the Stars and 
Stripes throughout our history.
    The common bond that unites every soldier, sailor, airmen, 
and marine is a commitment to duty, honor, and country. Whether 
native-born, naturalized, or not yet U.S. citizens, 
servicemembers are unified not by common heritage, race, 
religion, or creed, but rather by this universal code that 
builds character, breeds conviction, and encourages valor. The 
code has a way of superceding nationalities.
    The placement of foreign-born and native soldiers together 
within a platoon, on a ship at sea, attached to an air squadron 
or a fire team, ensures that the only true measure of a 
fighting man or woman is their steadfast dedication to the 
mission and the reverence to the chain of command.
    Throughout their military service, immigrants have gained 
valuable insight into the purest forms of our democracy, and 
gain an appreciation for the truly American values that allow 
any individual, regardless of social class or family pedigree, 
to achieve whatever heights he or she sets for themselves.
    Immigrant servicemembers experience firsthand that the same 
standards that apply in combat, those of tenacity, grit, and 
toughness, are transferable to the pursuit of prosperity and 
success in the civilian world, as well.
    This concept of the American dream is alive and well today 
within the Armed Forces. Record numbers of lawful permanent 
residents continue to enlist, spurred on by the promise of 
expedited citizenship; but, more importantly, a desire to earn 
their place in their new communities, and the prospect for a 
secure, stable, and successful military career.
    By defending the Constitution, immigrant servicemembers 
gain an added respect for the enduring civic principles it 
guarantees: Those of freedom and opportunity for all men, 
equality before the law, respect and tolerance for differences, 
and the primacy of individual citizens, and their right to 
govern their Nation.
    Assimilation, or the patriotic integration of immigrants 
into the civil fabric of our Nation, is one of the most complex 
challenges we face as a Nation, but also represents one of our 
most essential objectives.
    Citizenship is not a simple benefit. The certificate of 
naturalization is not a handout. American citizenship is an 
invaluable distinction and privilege that involves much more 
than stamped paperwork and a printed certificate. Rather, 
citizenship is an identity that must be cultivated and 
nourished by the individual. It is a lifelong journey that 
begins with the first step an immigrant takes on American soil, 
and ends with their last breath.
    We've made improvements at the USCIS to facilitate the 
naturalization of foreign-born soldiers, sailors, airmen, and 
marines.
    The most recent improvements to the military and 
naturalization process became effective May 1 of this year. In 
collaboration with the Federal Bureau of Investigation and the 
DOD, USCIS instituted a change in our fingerprint process to 
better serve U.S. military personnel applying for 
naturalization.
    Under this process, military members applying for 
citizenship sign a Privacy Act Statement and Release 
Authorization, explicitly consenting to the use of their 
fingerprints at the time of enlistment for immigration benefits 
purposes, rather than having to wait after they come back from 
deployment.
    When deployments don't allow for State-side 
naturalizations, USCIS conducts overseas ceremonies for men and 
women serving at installations abroad.
    Under the authority granted by the 2003 amendment, USCIS 
officials have volunteered--and I reiterate, they volunteered--
to travel to Camp Anaconda in Afghanistan, Camp Victory in 
Iraq, they've stood on the deck of the U.S.S Kitty Hawk during 
exercises in the Sea of Japan, along the demilitarized zone 
(DMZ) in South Korea, and traveled from Iceland to Nairobi to 
naturalize almost 2,400 men and women who have earned the right 
to share in the liberties and freedoms they help to preserve.
    In fact, 176 soldiers from almost two dozen countries took 
the oath of allegiance to become U.S. citizens at July 4th 
ceremonies in Afghanistan and Iraq. In total, USCIS has 
naturalized more than 26,000 service men and women since 
September 11, 2001, in the U.S. and overseas.
    General Douglas MacArthur said, ``The soldier, above all 
men, is required to perform the highest act of religious 
teaching, that of sacrifice.''
    I do not possess the ability to comprehend the suffering of 
losing a spouse, a child, or a parent to war, nor the eloquence 
to accurately describe the emotion I feel when I sign a 
posthumous naturalization certificate, but when I put pen to 
paper, the reality hits me that these individuals are no longer 
with us because they've made the ultimate sacrifice to this 
great Nation.
    As a veteran, husband, parent, and the director of this 
great agency, I am proud and extremely honored to serve in 
supporting our military men and women and their families. As 
such, I'm committed to exhausting every effort to ensure that 
all military naturalization applications are processed 
expeditiously, so that servicemembers receive this honor on 
behalf of a grateful Nation.
    I recently traveled to Fort Hood, Texas, to swear in 39 
members of the Army's Third Corps, and I joined 150 sailors, 
marines, airmen, and coastguardsmen aboard the U.S.S. George 
Washington in Norfolk, Virginia, for their naturalization 
ceremony. Many of these brave men and women have recently 
returned from service in Iraq, and had already reenlisted for a 
second tour.
    During my time in the Army, I've served under three 
Chairmen of the Joint Chiefs of Staff with immigrant roots. We 
have spoken about General John Shalikashvili, an immigrant from 
Poland, born of Georgian parents. General Colin Powell, our 
former chairman, and our current chairman, General Peter Pace, 
a friend and mentor. They are first-generation Americans.
    America gave these men and their families home and hope, 
and they reciprocated with distinguished service, exceptional 
leadership, and boundless patriotism.
    Closer to home, Captain Felix Sosa-Camejo followed a 
similar path. He came here to Miami as a 20-year-old refugee 
from Castro's tyranny and enlisted in the United States Army in 
1963. He served on active duty for only 5 years, but Captain 
Sosa-Camejo earned 12 citations, including 2 Bronze Stars, 3 
Silver Stars, and 2 Purple Hearts.
    On February 13, 1968, in the heat of the Tet Offensive, on 
the streets of Hue, his lead platoon was pinned down by enemy 
fire and unable to reach a wounded comrade. With complete 
disregard for his safety, Captain Sosa-Camejo ran through 
intense enemy fire and pulled the wounded man to safety. This 
action would earn him his second Bronze Star with a V-device, 
but it would also cost him his life.
    The battlefield acts as the greatest equalizer amongst men. 
From the streets of Hue to the sandy alleyways of Fallujah, 
heroes were born of men who came to the United States, not as 
mercenaries, but as migrants. Men from Cuba who fought 
courageously alongside men from Indiana are buried together in 
Arlington, and each are equally regarded as Americans in 
memoriam.
    It is the promise of equality and the hope for a better 
future that has encouraged immigrants over the years to enlist 
in our Armed Forces. The prospect of gaining citizenship has 
increased these ranks of brave men, but it's the lifelong 
commitment to duty, honor, and country that has shaped the will 
of men to lay down life and limb, and sacrifice for their 
adopted country and comrades in arms. These are qualities that 
can only be gained, I believe, through military service.
    America is America because of its immigrants. We would not 
be the greatest country in the world were it not for our 
immigrant roots. Immigrants nourish the tree of liberty. They 
strengthen the social fabric. They strengthen everything that 
is good about America.
    I would be remiss if I did not remind our outside visitors 
of what a wonderful city, what a diverse city we're sitting in 
today, the city of Miami. Over 60 percent of everybody in this 
city was born somewhere overseas. Sixty percent.
    In this room, if I might embarrass them: we have our chief 
of police, who was born in Ireland, who came to this country in 
1961; our mayor, Manny Diaz, who was born in Cuba, came in 
1961; my Congresswoman, Ileana Ros-Lehtinen, also an immigrant; 
my Senator, Mel Martinez; and the first lady of my State.
    Immigration is what made this country what it is; and, for 
me, it is a signal honor to be sitting here before you as an 
immigrant, heading the largest immigration service in the 
world.
    Thank you for the opportunity to be here to testify about 
this important subject. This concludes my prepared remarks, and 
I would be pleased to take any questions later.
    Thank you, sir.
    [The prepared statement of Mr. Gonzalez follows:]

                Prepared Statement by Emilio T. Gonzalez

    Mr. Chairman and members of the committee: My name is Emilio 
Gonzalez and I am the Director of U.S. Citizenship and Immigration 
Services (USCIS). Thank you for the opportunity to appear before the 
Armed Services Committee today to testify about the contributions of 
immigrant soldiers to our Nation's Armed Forces, and describe 
improvements to USCIS processes and operations designed to facilitate 
the expedient naturalization of immigrant servicemembers as new 
American citizens.
    As an immigrant to our country, and a veteran of her Army, I could 
relate countless stories of what my service means to me, how it 
affected me personally and positively shaped my life. However, my story 
is only one of many when compared to the more than 45,000 noncitizen 
immigrant soldiers (Active and Reserve) currently serving across the 
world, and the hundreds of thousands of immigrants who have served 
under the Stars and Stripes throughout our history.
    The common bond that unites every soldier, sailor, airman, and 
marine is a commitment to duty, honor, and country. Whether native 
born, naturalized, or not U.S. citizens at all, servicemembers are 
unified not by a common heritage, race, religion or creed, but rather 
by this universal code that builds character, breeds conviction and 
encourages valor. The code has a way of superceding nationalities. The 
placement of foreign-born and native soldiers together within a 
platoon, on a ship at sea, attached to an air squadron or a fire team, 
ensures that the only true measures of a fighting man or woman is their 
steadfast dedication to the mission and reverence for the chain of 
command. Under fire, all other considerations are irrelevant.
    The battlefield acts as the greatest equalizer amongst men. On the 
fields of Gettysburg, in the Argonne forest, on the beaches of 
Normandy, Iwo Jima, and Inchon, on the streets of Hue and along sandy 
alleyways in Fallujah, heroes were born from men who came to the United 
States not as mercenaries, but as migrants. Men from Ireland who fought 
courageously alongside men from Indiana are buried together at 
Arlington, and each are equally regarded as Americans in memoriam.
    By learning from the example of their honorable service, our Nation 
has graciously welcomed immigrants from every corner of this earth and 
come to assign a high value to their aptitude for military service. 
This is not a new phenomenon. Soldiers of the Continental Army, whether 
native or immigrant, swore ``to be true to the United States of America 
and to serve them honestly and faithfully.''
    A Polish and French-trained artillery and engineering officer, 
Thaddeus Kosciusko came to the United States to enlist in the fledgling 
Continental Army. According to a wonderful legend, Kosciusko presented 
himself before a tired General Washington, who was not quite sure what 
to do with another foreign volunteer lacking English skills. ``I've 
come to fight for American independence,'' Kosciusko told Washington, 
so the legend goes. ``What can you do?'' Washington asked. The response 
was simple and profound. ``Try me,'' responded the foreigner. Kosciusko 
served with distinction throughout the Revolutionary War making 
significant contributions to the successful American retreat from the 
battle of Ticonderoga and victory at Saratoga in 1777.
    He later became a naturalized American and was promoted to 
Brigadier General by Congress. Thomas Jefferson would write of this 
soldier, ``He was as pure a son of liberty as I have ever known.''
    It is this same ``Try me'' spirit seen again and again through the 
years that has brought us other immigrant veterans, anxious for the 
chance to prove themselves and contribute to their adopted nation. One 
of the founding fathers of our Navy, Admiral David Farragut, was the 
son of Jordi Farragut Mesquida, a Spanish--Catalan merchant captain 
from Minorca, who had joined the American Revolutionary cause and was a 
cavalry officer in the Tennessee militia. By the 1840s, almost half of 
all U.S. military recruits were not U.S. citizens, but rather 
immigrants enlisted right off the boat they came in on.
    At the battle of the Alamo, 28 men, hailing from Ireland, Scotland, 
Wales, England, Germany, and Denmark, lost their lives on a barren 
Texas battlefield, thousands of miles from their European homelands. 
They crossed a line in the sand that day and chose to fight and die for 
their adopted land and independent rights. Today, their memory lives 
on, and has come to represent the strength of character and fighting 
spirit that defines our American identity.
    During the Civil War, noncitizens constituted as much as 20 percent 
of the 1.5 million-man Union Army. Three hundred sixty-nine immigrant 
soldiers were awarded the Medal of Honor for their heroism in the Union 
cause, including Captain William Joyce Sewell of Ireland, who would 
later go on to become Senator Sewell of New Jersey, and was elected to 
two terms in office by his peers.
    Through their military service, immigrants gain valuable insight 
into the purest forms of our democracy and learn an appreciation for 
the truly American values that allow any man, regardless of social 
class or family pedigree, to achieve whatever heights he sets for 
himself. Immigrant servicemembers experience first hand that the same 
standards applying to combat, those of tenacity, grit and toughness, 
are transferable to the pursuit of prosperity and success in the 
civilian world as well.
    This concept of the American Dream is alive and well today within 
the U.S. Armed Forces. Record numbers of lawful permanent residents 
continue to enlist, spurred on by the promise of expedited citizenship, 
a desire to earn their place in their new communities and the prospect 
of a secure, stable, and well-compensated military career.
    One hero who followed this distinctly American path was born in a 
Balkan village called Prolog, now in western Bosnia. Peter Tomich was 
20 years old when he came here in 1913, with nothing but opportunity in 
his pocket.
    He decided to join the Navy, and on December 7, 1941, Chief 
Watertender Peter Tomich was below deck on the U.S.S. Utah, stationed 
at Pearl Harbor. At the age of 48, he had 22 years of naval experience, 
having served longer than many of the senior officers he served under. 
The Navy was his life, and Chief Wartertender Tomich forged his own 
American identity in the literal melting pot of the engine boiler rooms 
aboard the steam-propelled dreadnoughts of the Pacific Fleet.
    Just before 8 a.m. on that fateful December morning, two Japanese 
torpedoes struck the Utah and the ship began to list heavily to port. 
Below deck, in the engineering plant, water rushed towards the huge 
boilers. Tomich, ever mindful of his crew, ran in to warn them of the 
danger and relayed the order to evacuate. Knowing that the boilers 
would explode if not properly secured, he ignored his own evacuation 
order and set himself to the job that had to be done.
    As the crewman began up the ladders and headed for daylight above, 
they turned one last time to watch their Chief. He calmly moved from 
valve to valve, setting the gauges, releasing steam pressure, 
stabilizing and securing the huge boilers that otherwise would have 
turned the entire ship into a massive inferno. His time for escape had 
run out. But before the ship rolled over, he completed his mission and 
prevented an explosion that would have killed hundreds of men trying to 
swim to safety.
    For his ``distinguished conduct and extraordinary courage'' Peter 
Tomich was awarded the Medal of Honor.
    Felix Sosa-Camejo followed a similar path. He came here, to Miami, 
as a 20 year-old refugee from Castro's regime and enlisted in the Army 
in 1963. Serving for 5 years, Captain Sosa-Camejo earned 12 citations, 
including the Bronze Star, 3 Silver Stars, and 2 Purple Hearts. On 
February 13, 1968, in the heat of the Tet Offensive on the streets of 
Hue, his platoon was pinned down by enemy fire and unable to reach a 
wounded comrade. With disregard for his safety, Captain Sosa-Camejo ran 
through the intense enemy fire and pulled the wounded man to safety. 
This action would earn Captain Sosa-Camejo his second Bronze Star and 
would cost him his life.
    Fast forward to Iraq. November 15, 2004. A platoon scout assigned 
to perimeter security, 25-year-old Marine Sergeant Rafael Peralta of 
Alpha Company, 1st Battalion, 3rd Marine Regiment, 3rd Marine Division 
volunteered to go door to door through the streets of Fallujah with an 
assault team. Peralta could have stayed back, as this was not his 
assignment, but it wasn't in this hero's nature to let his brothers 
fight without him.
    Peralta was born in Mexico, joined the Marines the day after he 
became a lawful permanent resident and earned his citizenship while on 
Active-Duty. He was serving his first tour in Iraq on that day in 
November, when he led a stack of six marines through a suspected 
terrorist hide out. In the ensuing fire-fight, Sergeant Peralta was 
shot in the face and chest as he burst into a closed room and fell into 
the line of fire. When four marines maneuvered into the room where he 
lay wounded, one of the terrorists tossed a grenade landing close to 
Peralta. In his final moments, he pulled the grenade close to him, 
smothered its blast with his body, and saved the lives of his fellow 
marines.
    ``Be proud of being an American . . . I'm going to do something I 
always wanted to do,'' Peralta wrote to his brother Ricardo, 14, in a 
letter that arrived home the day after he died. A true American hero, 
Sergeant Rafael Peralta has been recommended for the Medal of Honor.
    General Douglas MacArthur said, ``The soldier, above all other men, 
is required to perform the highest act of religious teaching-
sacrifice.'' Peter Tomich and Rafael Peralta made the ultimate 
sacrifice in the name of their adopted country, giving their lives to 
save those of their fellow countrymen. Their heroic actions are 
testimony to the profound patriotism of those immigrants who chose to 
serve, and die, for our great Nation.
    By fighting to defend the Constitution, immigrant servicemembers 
gain an added respect for the enduring civic principles it guarantees: 
those of freedom and opportunity for all men, equality before the law, 
respect, and tolerance for difference, and the primacy of individual 
citizens and their rights to govern the Nation.
    Assimilation, or the patriotic integration of immigrants into the 
civic fabric of our Nation, is one of the most complex challenges we 
face as a nation and also represents one of our most essential 
objectives. Citizenship is not a simple benefit. The Certificate of 
Naturalization is not a hand out. American Citizenship is an invaluable 
distinction and privilege that involves much more than stamped 
paperwork and a printed certificate. Rather, Citizenship is an identity 
that must be cultivated and nurtured by the individual. It is a life-
long journey that begins with the first step an immigrant takes on 
American soil and ends with their last breath.
    It is quickly understood that those immigrants who volunteer to 
serve in our Armed Forces are more easily integrated into our Nation, 
foster a greater attachment to our national and political institutions, 
and are transformed into committed and loyal Americans who voluntarily 
accept the obligations and responsibilities of citizenship.
    Before turning to what we at USCIS are doing in the area of 
military naturalization, it may be useful briefly to summarize our 
current authorities. Congress recently clarified, in section 504 of 
title 10, U.S. Code, the eligibility of noncitizens to enlist for 
military service. In brief, lawful permanent resident aliens, certain 
nationals of three Pacific nations in free association with the United 
States (the Republic of the Marshall Islands, the Federated States of 
Micronesia, and Palau), and any other person ``if the Secretary [of the 
armed service] concerned . . . determines that such enlistment is vital 
to the national interest'', are eligible to enlist in the Armed Forces.
    Once in the military, there are a number of special provisions of 
the Immigration and Nationality Act (INA) for servicemembers and 
veterans that modify the eligibility requirements for naturalization as 
a U.S. citizen that otherwise apply. The most relevant of these 
currently is section 329 of the INA, which authorizes the 
naturalization of any person who is honorably serving, or has honorably 
served during any period of armed conflict designated by the President 
without having previously to be a lawful permanent resident alien or to 
satisfy any requirements relating to period of residence or physical 
presence in the United States (in particular, the general requirement 
otherwise in the INA that a person has to have been a lawful permanent 
resident for 5 years before being eligible for naturalization). By 
Executive Order on July 2, 2002, President Bush designated the period 
beginning on September 11, 2001 and continuing until further notice as 
such a period of armed conflict for the purposes of INA section 329. In 
November 2003, Congress provided us with some additional useful 
military naturalization authorities, in particular, the authority to 
naturalize servicemembers outside the United States. Additionally, the 
statute provided for the waiver of processing fees for military 
naturalization.
    Under the direction of the President, USCIS is taking steps to 
ensure that the application process for immigrant servicemembers is 
convenient, quick, and secure. In order to expedite processing, we 
established a specialized unit at our Nebraska Service Center where all 
up-front processing on military naturalization takes place. Specialists 
within USCIS Field Offices and Headquarters have been selected to 
handle military naturalization packets. Many consider this 
responsibility a privilege and an honor, and do all that they can to 
ensure that applications are processed and completed, in as many cases 
as possible, before these brave men and women are deployed to combat 
zones overseas. In all of our military naturalization efforts, we work 
very closely with our Department of Defense (DOD) counterparts.
    The most recent improvement to the military naturalization process 
became effective May 1, 2006. In collaboration with the Federal Bureau 
of Investigation (FBI) and the DOD, USCIS instituted a change in our 
fingerprint process to better serve U.S. military personnel applying 
for naturalization. Under this improved process, military members 
applying for naturalization may sign a Privacy Act Statement and 
Release Authorization Form, explicitly consenting to the use of the 
fingerprints provided at time of enlistment for immigration benefits 
purposes, rather than having to appear at one of our Application 
Support Centers post-deployment to provide a new set of fingerprints. 
Furthermore, if we are aware of an impending deployment, we expedite 
FBI name checks for soldiers.
    This new procedure applies to all noncitizen members of the U.S. 
Armed Forces seeking naturalization and eliminates a significant 
obstacle that previously delayed some military naturalization cases. 
But sometimes, we can't process the applications quickly enough.
    I do not possess the ability to comprehend the suffering of losing 
a spouse, child or parent to war, nor the eloquence to accurately 
describe the emotion I feel when signing a posthumous naturalization 
certificate. When I put pen to paper, the reality hits me that they are 
no longer with us because they have made the ultimate sacrifice for 
this nation. The experience leaves me without words. As a veteran, a 
husband, a parent, and the Director of USCIS, I am proud and extremely 
honored to serve this agency in supporting our military men and women 
and their families.
    As such, I am committed to exhausting every effort to ensure that 
all military naturalization applications are processed expeditiously so 
that servicemembers receive this honor on behalf of a grateful Nation. 
I recently traveled to Fort Hood, Texas, to swear in 39 members of III 
Army Corps, and joined 150 sailors and marines on the U.S.S. George 
Washington for their naturalization ceremony while stationed at 
Norfolk. Many of these brave men and women had recently returned from 
service in Iraq, and had reenlisted for a second tour.
    When deployments don't allow for stateside naturalization, USCIS 
conduct overseas ceremonies for men and women serving at U.S. 
installations abroad. Under authority granted by the 2003 Amendment, 
USCIS officials have volunteered to travel to Camp Anaconda in 
Afghanistan and Camp Victory in Iraq, stood on the deck of the U.S.S. 
Kitty Hawk during exercises in the Sea of Japan, along the 
demilitarized zone in South Korea, and traveled from Iceland to Nairobi 
to naturalize almost 2,400 service men and women who have earned the 
right to share in the liberties and freedoms they help to preserve. In 
fact, 176 soldiers from almost two dozens different countries took the 
oath of allegiance to become U.S. citizens at July 4 ceremonies in 
Afghanistan and Iraq.
    In total, USCIS has naturalized more than 26,000 service men and 
women since September 11, 2001 in the U.S. and overseas.
    USCIS also actively engages in conducting outreach to military 
personnel interested and eligible in becoming citizens. USCIS Community 
Liaison Officers regularly visit military installations to answer 
questions and help with citizenship paperwork. At the national level, 
USCIS is launching an extensive public outreach effort targeting 
service men and women who may be eligible to naturalize. The efforts 
include local outreach initiatives, the development and dissemination 
of educational materials, a USCIS military brochure and media efforts 
designed to reach this constituency both in the United States and 
overseas.
    During my time in the Army, I served under three Chairmen of the 
Joint Chief's of Staff with immigrant roots. General John 
Shalikashvili, Chairman from 1993 to 1997, was an immigrant from 
Poland, born of Georgian parents. General Colin Powell and our current 
Chairman, General Peter Pace, are first-generation Americans 
themselves.
    America gave these men, and their families, home and hope and they 
reciprocated with distinguished service, exceptional leadership and 
boundless patriotism. Their success proves that our Nation is a land of 
unlimited opportunity, and their loyalty and valor prove that 
immigrants deserve every opportunity to contribute to our national 
defense.
    It is the promise of equality and the hope for a better future that 
has encouraged immigrants over the years to enlist in our Armed Forces. 
The prospect of gaining citizenship has increased these ranks of brave 
men and women. But it is the life-long commitment to Duty, Honor and 
Country that has shaped the will of men to lay down life and limb, and 
sacrifice for their adopted country and comrades in arms. These are 
qualities that can only be gained through military service.
    Thank you for the opportunity to be here today to testify about 
this important subject. This concludes my prepared statement, and I 
would be pleased to take any questions you may have at this time. Thank 
you.

    Chairman Warner. Thank you very much, Director Gonzalez. 
This is a memorable moment for all of us, but I think 
particularly for you. Given this is not the capstone for your 
career, many things are to come, but this is certainly a day 
that you will remember, too.
    Now, Mr. Rascon, we're awaiting your testimony.

 STATEMENT OF ALFRED RASCON, FORMER DIRECTOR, SELECTIVE SERVICE

    Mr. Rascon. Senator Warner, thank you very much for having 
me here. Senator McCain, Senator Kennedy, Senator Graham, 
Senator Martinez, it's a great honor to be here. I have a short 
prepared speech here, and I'll get with it, and we'll get 
finished with it.
    Chairman Warner. There's no hurry. We owe a great deal to 
you, and to so many like you who have shown that extraordinary 
courage on the battlefield such that we can be here today 
enjoying the freedoms that we enjoy every day.
    Mr. Rascon. Thank you, sir. I am Alfred Rascon, one 
immigrant of approximately 3,450-plus, or 20 percent of the 
service men and women to have been presented the Medal of 
Honor, the highest citation for valor.
    At the time of the action leading to the Medal of Honor, I 
was not yet a citizen, but a legal permanent resident. I fought 
in Vietnam twice; I was in Operation Just Cause in Panama in 
1989; in 2003, in Iraq and Afghanistan; and again in Iraq in 
2004.
    I left my subcabinet-level position with the Bush 
administration to join my fellow soldiers recalled to active 
duty, when I could have been exempt because of my position as 
Director of the Selective Service.
    My fellow soldiers in Vietnam simply knew me as Al or Doc. 
These men that fought with me, and died beside me, never asked 
anything of my legal status in the United States.
    Oddly enough, when presented the Medal of Honor in 2000, 
some 34 years after the action, the members of my paratrooper 
reconnaissance platoon at the ceremony were startled to learn 
that I was born in Mexico and was not yet a citizen of the 
United States, or, in fact, that I was of Mexican descent.
    When bullets were flying, little was asked of your 
birthplace. Those receiving incoming bullets never asked 
anything, or were they even involved with equal opportunity. 
Equal opportunity was equal opportunity death.
    We served in the American Revolution under many names like 
Cargill, O'Malley, Richardson, Hinkle, Gustav, to that of 
Gonzalez and Johnson.
    We were the first Inspector General of the Continental 
Army. We were present at the American Revolution. We were there 
when it started, and we were there when it finished.
    I was born in Chihuahua, Mexico, and raised in the United 
States from an early age in childhood in Oxnard, a small town 
in Southern California.
    By the fact that I was seen as a ``wetback,'' or other not-
so-nice names, I made it a point to learn and know more about 
this Nation's rich heritage than many of my citizen friends. I 
simply loved my adopted country.
    Ironically, my neighbors were of Japanese-American descent. 
I learned to speak Japanese before I spoke English. I was a 
little boy to them, who showed no adverse actions to how they 
looked or what they ate. I was just their neighbor.
    I was to learn later that the father of that family, along 
with his mother and family, had been interned in a relocation 
camp during World War II, but he was not bitter. He ended up 
joining the military in World War II, and fought with the 442nd 
Regimental Combat Team, the highest decorated military regiment 
in the United States Army.
    We many thousands of past and present proud immigrants to 
this great country did not have the choice of choosing our 
place of birth or choice of parents. We did have the choice to 
be called immigrants by birth and Americans by choice. We were 
always Americans in our hearts.
    We immigrants who serve and are today in the Armed Forces 
of the United States of America continue to honor and serve to 
defend whatever is asked of us in keeping our country--our 
country--free, or to go where we're asked for freedom.
    We are all byproducts of immigrants, or descendents of 
them, with the exception of our great American Indians. We are 
a Nation of immigrants who will fight to the death to protect 
this great Nation, and we will never be brought to our knees by 
any nation or any terrorists, and we will fight for freedom. 
Thank you very much.
    Chairman Warner. Thank you very much. Another moment in 
history today, your testimony. Thank you very much.
    Professor Stock.

    STATEMENT OF MARGARET D. STOCK, ASSOCIATE PROFESSOR OF 
CONSTITUTIONAL AND MILITARY LAW, UNITED STATES MILITARY ACADEMY

    Ms. Stock. Senator Warner and distinguished senators of the 
committee, my name is Margaret Stock. I am honored to be here 
today in my capacity as an expert in the fields of immigration, 
constitutional, military, and national security law.
    For the past 5 years, I have served on the faculty of the 
Department of Law at the United States Military Academy at West 
Point, New York. In my capacity as a lieutenant colonel in the 
Military Police Corps in the United States Army Reserve, I'm 
currently assigned as an associate professor in the Department 
of Social Sciences at West Point.
    The statements, opinions, and views I express today, 
however, are my own, and do not reflect the views of the United 
States Military Academy, the Department of the Army, the DOD, 
or any other Government agency.
    As I mentioned previously, I have served for the past 5 
years on the faculty at West Point. During my service on the 
West Point faculty, and through the legal assistance officers 
of the Judge Advocate General's Corps (JAGC), I have advised 
military members and civilian employees of the DOD with regard 
to U.S. immigration and citizenship matters.
    Prior to joining the West Point faculty, I was an attorney 
in private practice, and, over the years, I assisted numerous 
military members and their families with U.S. immigration 
matters. Thus, I have more than 10 years of experience with the 
issues and problems that military members and their families 
face with regard to U.S. immigration and citizenship law.
    I'm honored to be appearing before you today to discuss 
immigrants and the U.S. military. This hearing could not be 
more important or timely, because it comes as our Nation is 
engaged in an important debate over how we should reform our 
immigration laws.
    This debate comes as we are fighting a global war on 
terrorism, with an enemy who speaks many languages, travels 
internationally, and attempts to fight our forces here at home 
and across the globe.
    Immigrants play a vital role in this struggle, and the 
outcome of the debate over reform of our immigration laws will 
have a dramatic impact on our ability to prevail in the global 
war on terrorism.
    We need comprehensive immigration reform to win the war on 
terrorism. An ``enforcement only'' approach, the approach that 
we have essentially been pursuing unsuccessfully for the past 
10 years, will continue to hurt our ability to recruit and 
retain immigrants for the Armed Forces. ``Enforcement only'' 
will also continue to add significant stress to military 
families, as many of our military families include family 
members who are legally present in the United States, and 
others who are not.
    Currently, many military members fighting overseas find 
that they must also fight their government at home, when that 
government seeks to deport their parents, their spouses, their 
children, and other family members. While recruiting for the 
Armed Forces continues to be a challenge, military recruiters 
daily turn away high-quality, American-educated young people 
who would make excellent recruits, but who lack lawful 
permanent resident status and have no means to attain it.
    Comprehensive immigration reform, especially if it includes 
the bipartisan Development, Relief, and Education for Alien 
Minors (DREAM) Act, will enhance our ability to obtain high-
quality recruits for the United States Armed Forces.
    Comprehensive reform will also reduce the cost to our 
military families of hiring lawyers and dealing with the stress 
of trying to stop the deportation of their family members.
    It's important to note that the current state of 
immigration law is poor, and only promises to get worse unless 
Congress enacts comprehensive reform. The current immigration 
system is an obstacle to enhancing our security because it is 
dysfunctional and irrational.
    The most apt description of the state of our immigration 
laws comes from former INS spokesperson, Karen Kraushaar, who 
said, as reported in the Washington Post, that U.S. immigration 
law is a mystery and a mastery of obfuscation.
    As military members encounter these laws and this system, 
they often experience the same difficulties and frustrations 
that civilians experience. They must deal with the complex 
system that requires years of study to understand and a system 
that makes it nearly impossible for many people to immigrate 
legally to the United States, unless, perhaps, they have the 
funds to hire one of the rare attorneys who knows how to 
navigate the system successfully.
    In the military, military members often turn to the JAGC 
for advice and assistance with their immigration matters, but 
few JAG attorneys have the expertise needed to help them with 
anything more than the most simple immigration matters. Often, 
then, they must turn to private sector immigration attorneys; 
but, in many places where military members are deployed, 
lawyers with the necessary expertise are not to be found, or 
may be too expensive for military members to afford.
    Congress has done much in recent years to try to help 
noncitizen military members become citizens more quickly. I 
applaud this effort which has been highly beneficial to the 
U.S. Armed Forces in allowing them to obtain and retain 
qualified enlisted personnel and officers. Yet, changing the 
law regarding citizenship or naturalization of military members 
is not enough, and not always enough. In navigating the very 
complex bureaucratic immigration system, even having the law on 
your side doesn't always guarantee success.
    By way of example, I want to offer today the case of 
Private Abbas Malik, a U.S. Army soldier currently serving in 
Baghdad. He does roadside checkpoints in the infantry.
    Private Malik was born in Pakistan, speaks fluent English 
and Urdu, and immigrated to the United States when he was a 
child. He joined Junior Reserve Officers Training Corps in high 
school, and, after high school, attempted to join the Army. He 
was turned away by recruiters at first, because he was on the 
waiting list for a green card, but he did not have it yet.
    When he finally obtained his green card, he immediately 
enlisted in the infantry in 2003. As soon as he reported for 
basic training, he applied for his U.S. citizenship, as the law 
allows him to do, and, yet, more than 2 years later, he still 
does not have his U.S. citizenship; not because he's not 
qualified for it, or because the law stands in his way, but 
because he's not been able to navigate the system successfully.
    At every step of the way, he has encountered a chain of 
command and legal assistance officers who are not familiar with 
the procedures to speed him towards citizenship.
    I want to note that USCIS has attempted to help him, but 
he's had some problems getting fingerprints overseas, and so 
his case has languished.
    Today, although Private Malik would like to volunteer for 
elite units serving in Afghanistan and elsewhere, where his 
Urdu language ability would be useful. He cannot, because he 
lacks U.S. citizenship.
    I mention this case as just one example, but my experience 
has been that military members face similar obstacles in many 
parts of the immigration process, and not only in their 
attempts to obtain citizenship.
    They face consular officers who deny their family members 
visas, because the consular officers say that the DOD pay scale 
is too low, and the military members will not be able to 
support their families on their military pay.
    They face Department of Homeland Security (DHS) officials 
who deny their spouses benefits because the military members 
have been deployed and are unable to attend interviews, or 
because the military members have moved and DHS has not yet 
updated their address in the system. Often, their only recourse 
is to seek congressional assistance.
    Problems like these can be resolved with appropriate 
training of immigration officials, more resources, and perhaps 
some reorganization of the process; but some problems can't be 
solved without comprehensive legal immigration reform.
    A very serious problem today is the fact that many military 
family members cannot become legal under the current 
immigration system. Some have entered the U.S. illegally and 
cannot adjust their status; some have overstayed a visa; most 
cannot leave the United States for fear of triggering a 3-year, 
10-year, or permanent bar from the United States; and even 
their U.S. citizen spouses, who are lawful permanent spouses, 
cannot help them to overcome those barriers.
    A guest worker program alone will not help many of these 
military family members. ``Enforcement only'' means that these 
military family members face exile in a foreign country, and 
the U.S. military may eventually lose the U.S. military member, 
who may not want to continue to serve in the United States 
Military when his or her family has been banished to Mexico, 
the Philippines, or some other faraway place. Without legal 
reform, these problems cannot be resolved.
    Finally, this committee should be aware that the Pentagon 
has learned from a recent study by the Center for Naval 
Analyses that noncitizens, on average, offer many benefits to 
the U.S. Military.
    The report notes that noncitizens are more diverse than 
citizen recruits, not just racially and ethnically, but also 
linguistically and culturally. This diversity is particularly 
valuable as the United States faces the challenges of the 
global war on terrorism.
    Second, noncitizens do extremely well in the military. In 
fact, black, Asian, Pacific Islander, and Hispanic noncitizens 
have 3-month attrition rates that are 7 to 8 percentage points 
below those for white citizens. Furthermore, noncitizens have 
36-month attrition rates that are 9 to 20 percentage points 
lower than the attrition rates of white citizens.
    There are additional figures and numbers in that report 
that are very useful for painting a picture of the value that 
noncitizens give to the United States military today.
    When the Pentagon recruits a noncitizen for the military, 
the bottom line is, it tends to get a better bang for its 
recruiting buck. Because current law theoretically allows 
noncitizens to get virtually instant citizenship by joining the 
U.S. military, assuming they meet all the other requirements, 
and serve honorably, there are no legal barriers to encouraging 
noncitizens to join.
    Comprehensive immigration reform--and, in particular, the 
bipartisan DREAM Act--will help provide more of these high-
quality recruits at a time when our Nation needs them more than 
ever.
    That concludes my prepared remarks, and I'm ready to take 
your questions.
    [The prepared statement and additional inserts of Ms. Stock 
follow:]

                Prepared Statement by Margaret D. Stock

    Mr. Chairman and distinguished members of the committee, my name is 
Margaret Stock. I am honored to be here in my capacity as an expert in 
the fields of immigration, constitutional, military, and national 
security law. For the past 5 years, I have been a professor in the 
Department of Law at the United States Military Academy at West Point, 
New York. In my capacity as a Lieutenant Colonel in the Military Police 
Corps, U.S. Army Reserve, I am currently assigned as an Associate 
Professor in the Department of Social Sciences at the Military Academy. 
The statements, opinions, and views I express today are my own, 
however, and do not represent the views of the United States Military 
Academy, the Department of the Army, the Department of Defense (DOD) 
any other Government agency.
    As I mentioned previously, I have served for the past 5 years on 
the faculty at West Point. During my service on the West Point faculty, 
and through the Legal Assistance officers of the Judge Advocate 
General's (JAGs) Corps, I have advised military members (and civilian 
employees) of the DOD with regard to U.S. immigration and citizenship 
matters. Prior to joining the West Point faculty, I was an attorney in 
private practice, and over the years I assisted numerous military 
members and their families with U.S. immigration matters. Thus, I have 
more than 10 years experience with the issues and problems that 
military members and their families face with regard to immigration and 
citizenship law.
    I am honored to be appearing before you today to discuss immigrants 
and the U.S. military. This hearing could not be more important or 
timely because it comes as our Nation is engaged in an important debate 
about how we should reform our immigration laws. This debate comes as 
we are fighting a global war on terrorism, with an enemy who speaks 
many languages, travels internationally, and fights our forces here at 
home and across the globe. Immigrants playa vital role in this 
struggle, and the outcome of the debate over reform of our immigration 
laws will have a dramatic impact on our ability to prevail in the 
global war on terrorism.
    We need comprehensive immigration reform to win the global war on 
terrorism. An ``enforcement only'' approach--the same approach that we 
have essentially been pursuing for the past 10 years--will continue to 
hurt our ability to recruit and retain immigrants for the Armed Forces. 
``Enforcement only'' will also continue to add significant stress to 
military families, as many of our military families include family 
members who are legally present in the United States, and others who 
are not. Currently, many military members fighting overseas find that 
they must also fight their own government at home, as that government 
seeks to deport their parents, spouses, and children residing in the 
United States. While recruiting for the Armed Forces continues to be a 
challenge, military recruiters daily turn away high-quality young 
people who would make excellent recruits but who lack lawful permanent 
resident status and have no means to attain it. Comprehensive 
immigration reform--especially if it includes the bipartisan 
Development, Relief, and Education for Alien Minors (DREAM) Act--will 
enhance our ability to obtain high-quality recruits for the United 
States Armed Forces. Comprehensive reform will also reduce the cost to 
our military families of hiring lawyers and dealing with the stress of 
trying to stop the deportation of their family members.
    It is important to note that the current state of immigration law 
is poor, and only promises to get worse--unless Congress enacts 
comprehensive reform. The current immigration system is an obstacle to 
enhancing our security because it is dysfunctional and irrational. The 
most apt description of the state of our immigration laws comes from 
former Immigration and Naturalization Service spokesperson Karen 
Kraushaar, who said that U.S. ``immigration law is a mystery and a 
mastery of obfuscation.'' As military members encounter these laws and 
this system, they often experience the same difficulties and 
frustrations that civilians experience. They must deal with a complex 
system that requires years of study to understand-a system that makes 
it nearly impossible for many people to immigrate to the United States 
legally unless they have the funds to hire one of the rare attorneys 
who knows how to navigate the system successfully. In the military, 
they often turn to the JAG Corps for advice and assistance with their 
immigration matters--but few JAG attorneys have the expertise to help 
them with anything more than the most simple immigration matters. 
Often, then, they must turn to private sector immigration attorneys--
but in many places where our military members are deployed, lawyers 
with the necessary expertise are not to be found, or may be too 
expensive for military members to afford.
    Congress has done much in recent years to try to help non-citizen 
military members become citizens more quickly. I applaud this effort, 
which has been highly beneficial to the U.S. Armed Forces in obtaining 
and retaining qualified enlisted personnel and officers. Yet changing 
the law is not always enough; in navigating the very complex 
bureaucratic immigration system, even having the law on your side does 
not always guarantee success. By way of example, I offer the case of 
Private Abbas Malik, a U.S. Army soldier currently serving in Baghdad. 
Private Malik was born in Pakistan, speaks fluent English and Urdu, and 
immigrated to the United States when he was achild. He joined Junior 
Reserve Officers' Training Corps (ROTC) in high school, and after high 
school, attempted to join the Army. He was turned away by recruiters at 
first because he was on the waiting list for a green card, but did not 
have it yet. When he finally obtained his green card, he immediately 
enlisted in the infantry--in 2003. As soon as he reported for basic 
training, he applied for his U.S. citizenship, as the law allows him to 
do. Yet more than 2 years later, he still does not have his U.S. 
citizenship--not because he is not qualified for it, or because the law 
stands in his way, but because he has not been able to navigate the 
system successfully. At every step of the way, he has encountered a 
chain-of-command and legal assistance officers who are not familiar 
with the procedures to speed him towards citizenship. Today, although 
Private Malik would like to volunteer for elite units serving in 
Afghanistan and elsewhere, where his Urdu language ability would be 
useful, he cannot because he lacks U.S. citizenship.
    I mention this case as just one example--but my experience has been 
that military members face similar obstacles in many parts of the 
immigration process, and not only in their attempts to obtain 
citizenship. They face consular officers who deny their family members 
visas because the consular officers say that the DOD payscales are too 
low to allow the military members to support their families; they face 
Department of Homeland Security (DHS) officials who deny their spouses 
benefits because the military members have been deployed and are unable 
to attend interviews, or because the military members have moved and 
DHS has not updated their address in the system. Often their only 
recourse is to seek congressional assistance.
    Problems like these can be resolved with appropriate training of 
immigration officials, more resources, and perhaps some reorganization 
of the process. But some problems cannot be solved without 
comprehensive legal reform. A very serious problem today is the fact 
that many military family members cannot become legal under the current 
immigration system. Some have entered the United States illegally and 
cannot adjust their status; some have overstayed a visa; most cannot 
leave the United States for fear of triggering a 3-year, 10-year, or 
permanent bar to their return. A guestworker program alone will not 
help many of these military family members. ``Enforcement only'' means 
that these military family members face exile in a foreign country--and 
the U.S. military may eventually lose the U.S. military member, who may 
not want to continue to serve in the United States military when his or 
her family has been banished to Mexico, the Philippines, or some other 
far away place. Without legal reform, these problems cannot be 
resolved.
    Finally, this committee should be aware that the Pentagon has also 
learned--from a recent study by the Center for Naval Analyses--that 
noncitizens, on average, offer many benefits to the U.S. military. The 
report notes that noncitizens are ``more diverse than citizen 
recruits--not just racially and ethnically, but also linguistically and 
culturally. This diversity is particularly valuable as the United 
States faces the challenges of the global war on terrorism. Second, . . 
. noncitizens do extremely well in the military. In fact, black, Asian 
and Pacific Islander (API), and Hispanic non-citizens have 3-month 
attrition rates that are 7 to 8 percentage points below those for white 
citizens. Furthermore, non-citizens have 36-month attrition rates that 
are 9 to 20 percentage points lower than the attrition rates of white 
citizens.'' (Non-Citizens in Today's Military: Final Report, April 
2005, at 1)
    So, when the Pentagon recruits a noncitizen for the military, it 
tends to get a better bang for its recruiting buck. Because current law 
theoretically allows noncitizens to get virtually instant citizenship 
by joining the U.S. military and serving honorably, there are no legal 
barriers to encouraging noncitizens to join.
    Comprehensive immigration reform--and in particular, the bipartisan 
DREAM Act--will help provide more of these high-quality recruits at a 
time when our Nation needs them more than ever.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Warner. Thank you very much. Given that our host 
for today is Senator Martinez, the panel now defers to you to 
initiate the questions. Senator.
    Senator Martinez. Thank you, Mr. Chairman, you're so kind. 
I appreciate that very much.
    Let me begin by asking if I might submit for the record a 
letter from a group of Honduran and Nicaraguan community-based 
groups that work with many immigrants? They have extended a 
very warm welcome to the committee.
    Chairman Warner. Without objection, it will be included as 
part of the record.
    Senator Martinez. Thank you, sir.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Martinez. Director Gonzalez, I wanted to, first of 
all, thank you for your testimony. It was very moving and 
touching. Mr. Rascon, it was great to hear from you as well.
    I must say that I find this whole hearing very exhilarating 
and emotional at times.
    I know, Director Gonzalez, that over the last many weeks 
your job has been difficult and challenging, and I know that 
you, as I, have been the subject of a lot of phone calls, and 
sometimes faxes that put in question your patriotism, your 
citizenship, your birthplace, and everything else.
    I'm delighted to have a chance for you to be here today, 
for us to honor your service to our country over the many years 
in the military, and now more recently in a civilian role.
    I wanted to ask, first of all, if you can tell us what 
improvements to the naturalization process for military 
personnel you have made during your time as director of the 
USCIS.
    Mr. Gonzalez. Thank you, Senator. The most significant one, 
at least since I've been there since January, has been to 
accept fingerprints submitted at the time of enlistment for our 
military personnel.
    In the past, military personnel were required to produce 
another set of fingerprints as part of the application package. 
We have done away with that, and we now accept, with the 
soldier authorizing a release, his original enlistment 
fingerprints, which allows us to speed up the process even 
more.
    Furthermore, we're in the process now of starting a 1-800 
telephone line dedicated only to military personnel. Right now 
we do have 1-800 numbers available, and the individuals who 
answer those are trained to answer questions, but we want to go 
a step further and have an 1-800 number dedicated only to 
military personnel, where they can get them an immediate 
response, either for information, or to any pending issue on 
their status.
    Senator Martinez. The other issue that you touched on 
earlier was the posthumous naturalizations that have also been 
taking place. I think General Pace said some 75 of these have 
happened in his testimony.
    I was wondering what happens to the surviving spouses. Do 
they have any opportunity, once their loved ones are now gone, 
in service to our Nation? What happens to the surviving spouse, 
and what does USCIS do for them?
    Mr. Gonzalez. Thank you, sir. I will tell you that the 
hardest part of my job is signing posthumous citizenship 
certificates. It's not something that I do easily. In fact, 
given the opportunity, I also call the parents or the next of 
kin of the servicemembers who are killed in action.
    As an anecdote--and I'm going to answer your question here, 
but you opened the door for me--I spoke to the father of a 
young man who was killed in Iraq. This gentleman, I believe, 
was from Guatemala, just a salt-of-the-earth individual.
    What do you say to a man who's lost his son, a young 
marine? I said, sir, what are your plans?
    He said, I was thinking about going back home, but that's 
all changed now, because home is not where you live, home is 
where you bury your children.
    That's really tough. What can you say to that man?
    He has my phone number, and he wants to be a citizen. I 
told him I would do everything I can to help him.
    With regard to surviving spouses, they do have 
opportunities. Spouses and parents qualify under the law. I 
believe it's a 2-year time period.
    I had the opportunity a couple of weeks ago to naturalize 
the wife of an Army warrant officer who was killed in Iraq in 
January. I did this at Fort Hood. She's the first such 
individual that I naturalized.
    It was an incredibly moving ceremony, because after we 
naturalized her, she led 39 other members of the Army's Third 
Corps in the pledge of allegiance. I have to tell you, there 
wasn't a dry eye in that room.
    We do have provisions, and we do fast-track, and we do 
everything we can to facilitate the naturalization process for 
the servicemembers' surviving spouses and children, if we can.
    Senator Martinez. Professor Stock, I was also intrigued by 
your mention of the DREAM Act on several occasions. I guess 
you're suggesting that by having better educated people, that 
those who choose then to enter the service will be in a better 
posture to serve our Nation and the military.
    Is that the connection between the DREAM Act and the 
military that you're drawing?
    Ms. Stock. Senator, the DREAM Act provides the option of 
serving in the military to get your green card. You would get 
conditional, lawful, permanent resident status. Then you would 
join the military, serve for a certain period of time, and the 
conditions would be lifted on that green card.
    The DREAM Act doesn't require that you serve in the 
military, of course. We have an All-Volunteer Force, and we 
don't want to force people to join the military to get their 
green cards.
    It offers other alternatives, such as attending college, if 
you can't qualify for the military, or you don't want to join 
the military, but I believe that the large numbers of young 
people in the country who have been educated at taxpayer 
expense are an enormous resource that our country should take 
advantage of. Rather than deporting them back to their country 
of origin just as they reach the point when they're ready to 
contribute to our community, and just at the point when they 
want to contribute to our community, it's key to offer them the 
option of serving in the United States Armed Forces.
    Many of these folks are very bright. The DREAM Act requires 
that they be of good moral character, have no criminal record, 
and, of course, meet all the other military requirements for 
enlistment.
    They're going to have to be stellar candidates to get in, 
and the only thing DREAM Act does is it offers them the option 
of serving in their country's Armed Forces in order to obtain 
that final permanent resident status.
    Senator Martinez. Part of your work, I know, is working 
with immigrant families, providing legal advice, and so forth. 
I also heard in your remarks the fact, if I understood it 
correctly, that the members of our military are spending a good 
bit of their time and attention and money to legalize or 
regularize or attempt to keep their parents from being 
deported. Is that what I heard you say?
    Ms. Stock. Yes, Senator. It's not just their parents. It's 
their wives, husbands, and sometimes children. I get calls and 
e-mails from attorneys and military members who are stressed 
out because they're over there in Baghdad, trying to fight for 
their country, and they're getting calls or e-mails from home 
saying, help, they're cracking down on immigrants here in the 
United States, and I'm worried about getting deported.
    In fact, there was a soldier from Florida who was quoted in 
a Florida newspaper, saying that he was very concerned that 
while he was deployed overseas, immigration was going to come 
and pick up his wife, who was an undocumented illegal 
immigrant.
    His wife is not able to get status because of the crackdown 
that's occurred since 1996, the ``enforcement only'' provisions 
that Congress has been enacting over and over again.
    In 1996, you probably recall they passed the Illegal 
Immigration and Immigrant Responsibility Act. As part of that, 
they made a whole pile of people ineligible to get green cards, 
even though they're married to citizens and lawful permanent 
residents. The soldier's wife was one of those people who just 
has no ability to become legal under current law.
    She also won't benefit from a guest worker program, unless 
you think that being the wife of a military member is a job 
that most Americans don't want. She's going to be stuck unless 
we get comprehensive immigration reform.
    Senator Martinez. Mr. Chairman, thank you very much.
    Chairman Warner. Thank you, Senator.
    I have advised my colleagues that we will have a media 
availability in an adjoining room here that will start in about 
10 or 12 minutes. Several of our colleagues have to make 
another commitment.
    At this time, we'll turn to Senator Kennedy.
    Senator Kennedy. Just briefly, I want to thank Mr. Gonzalez 
for all of his help to our committee on immigration, and the 
Judiciary Committee. He's been an enormous source of 
information and guidance, and has had a very distinguished 
career.
    Let me just, very quickly--because I know others want to, 
and I'll just take a few moments--there are, at the present 
time, a number of pending cases before you--as I understand, 
close to 35,000 servicemembers--but reference has been made 
about what happened on the Fourth of July by members of the 
panel. This was 76 U.S. troops on duty in Iraq taking the oath 
of citizenship.
    It was referred to earlier in the hearing.
    Those are the lucky ones that are actually taking the oath 
of office. There's a lot pending now, as I understand.
    Can you tell us how we can be helpful to make sure, or 
maybe you want to provide some additional material to us--
because it seems to me if we're going to talk about these 
gallant men and women that are serving on the firing line, who 
want to become citizens, we don't, on the other hand, just want 
to say it's a promise, and then not follow through on it.
    How can we help you get the job done?
    Mr. Gonzalez. Thank you very much. I also thank you for 
your leadership and the reforms that we made that ease the 
experience for naturalized Americans.
    I think ``pending'' may be a misnomer. ``Pending'' is not 
necessarily any kind of a backlog or a wait, it's just as these 
naturalization requests come in, they come to our Nebraska 
service center, and we turn them around as quickly as possible. 
``Pending'' could very well be an availability to reach out to 
a soldier because the soldier's overseas. We then have to send 
somebody out to naturalize that person, and we can't do that 
any other way. We can't delegate that authority. It may very 
well be it's a misnomer that the individual----
    Senator Kennedy. Maybe you could give us some detail, 
because we waive, for example, the fees.
    Mr. Gonzalez. Correct.
    Senator Kennedy. As I understand, you use those fees for 
processing.
    Mr. Gonzalez. Correct.
    Senator Kennedy. It would be interesting to find out from 
you, if you need more resources to be able to get the job done 
more quickly? Maybe you could just give us the facts, since we 
did suspend the waiving of it.
    Let me just move on.
    I want to thank Mr. Rascon. I was there with Spencer 
Abraham 2 or 3 years ago when you appeared before our Judiciary 
Committee, and you had that magnificent line which you 
mentioned here.
    You said, ``That time provided me with an opportunity to 
serve my adopted country. Above all, it gave me the opportunity 
to give something of myself to this great Nation. I was once 
asked by a reporter why as a noncitizen of the United States I 
volunteered to join the military and serve in Vietnam, not 
once, but twice. I answered, I was always an American in my 
heart.''
    That's pretty powerful.
    The passage from the transcript is only a couple of pages, 
Mr. Chairman. Could we put this testimony that he had at that 
time in today's record?
    Chairman Warner. Yes, put that in.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Kennedy. Finally, I'll ask Professor Stock, most 
people don't know much about the DREAM Act. You comment you 
have to be here for 5 years, at least; you have to have been 
able to graduate from high school.
    Many of these young people don't even know that they're 
illegal, some of them, as I understand it, but the military is 
offering, if they want to go in and sign up and do a job for 
the United States of America, they're conditionally let in. 
They serve the 2 years.
    Their officers are able to make an evaluation, and then 
they have to continue to serve us in there, but they have the 
assurance that they're going to be able to get a green card. 
It's an opportunity for people that want to serve to be able to 
serve at a time that we're under some pressure.
    Am I correct?
    Ms. Stock. You're absolutely correct, Senator.
    Senator Kennedy. Do I understand from your own experience 
that there's a real desire to be able to do that?
    Ms. Stock. There is a tremendous desire, Senator. If the 
DREAM Act were passed today, you would have far more recruits 
than you need for the United States Armed Forces. There are so 
many young people.
    That's because the folks who are going to benefit from the 
DREAM Act are not people who ran across the border yesterday, 
they're people who grew up in America. For the most part, they 
have been here since they were very young. There's a 5-year 
minimum requirement.
    The 5 years has to have occurred when they were under the 
age of 18, when they were young people.
    They are the more long-term residents, they were here when 
they were 2 or 3 years old.
    In fact, most of these folks who are going to benefit from 
the DREAM Act, when they walk into a military recruiter's 
office, a recruiter can't tell that they're not American 
citizens; they look, talk, act exactly like somebody born in 
the United States.
    The only thing that's preventing them from being accessed 
by the military, enlisting in the military, is the fact that 
they do not have documentation showing that they're long-term 
permanent residents.
    Senator Kennedy. If I could just ask a final question. Have 
you talked this over with the DOD? Can you give us quick 
action, or should we be the ones trying to answer that?
    Ms. Stock. I think if the DREAM Act were passed, that's 
probably what would help the most. I know that there is no 
resistance in the Pentagon to the idea of the DREAM Act.
    Chairman Warner. Thank you.
    Senator McCain.
    Senator McCain. I'll be brief, Mr. Chairman.
    I want to note the presence of the 
``legalizetheirish.com,'' who are here today. Members of that 
wonderful organization have joined me around the country at 
various places, and I must compliment them on their behavior 
today. It's far less unruly than I have noticed in the past, 
and I thank you very much.
    Director Gonzalez, do you support the President's proposal 
of comprehensive immigration reform?
    Mr. Gonzalez. Absolutely, sir.
    Senator McCain. Suppose that we pass enforcement only, and 
we have a permanent class of immigrants who would never be able 
to become citizens. What effect does that have on our society, 
briefly?
    Mr. Gonzalez. Sir, just from the DHS, which is what my 
agency is a part of, we have a universe of people now that we 
have no idea who they are, we have no idea where they work, 
where they live, we have no idea what their background is.
    The President's policy for comprehensive reform makes 
sense, because it's the right path. It's the middle road; it's 
not the extreme policy.
    I look at the extremes as those that want amnesty on one 
side, and those who want to kick everybody out on the other. We 
have to come up with a middle ground that addresses not just 
border security, but internal enforcement, and we have to find 
a way to deal----
    Senator McCain. Earn citizenship.
    Mr. Gonzalez. --sir, with the numbers of individuals who 
are undocumented within our borders today.
    Senator McCain. Professor Stock, you came a long way to 
this hearing, and we thank you very much for this and your long 
involvement in this issue.
    Maybe you don't have an answer to this question. How do you 
account, with your long involvement in this issue, for the very 
emotional opposition to comprehensive reform, or a path to 
citizenship? What's your view?
    It puzzles many of us as to how really combative this issue 
seems to be when we believe it deserves mature dialogue and 
discussion.
    Ms. Stock. Senator McCain, I think the big problem is that 
immigration law is so complicated that people don't understand 
it. I found that when you sit down and talk to audiences who 
are emotional about it, if you can explain to them, for 
example, that today there's virtually no way to become legal, 
they start to understand the issue, and they become less 
emotional.
    There's a myth out there that all you have to do to 
immigrate to America is go stand in some line somewhere. That's 
not the case today. There is no line to stand in.
    What I hear from people who get very emotional and are 
anti-immigrant, in a way, is that they think people should be 
forced to go stand in a line, and that sort of thing, because 
they think there is such a line. But there is no line, because 
we don't have a way for these people to legally immigrate.
    Comprehensive immigration reform is going to set up an 
avenue for earned adjustment. It will create a line for people 
to stand in to earn the privilege of becoming lawful, permanent 
residents, and then citizens.
    It won't let them jump to the front of the line. They'll 
have to get in the back of the line, but at least there will be 
a line.
    I think when you explain that to people, and you explain 
the fact that there's going to be penalty fees, and that the 
government will actually benefit greatly from enacting this 
reform, people start to understand. The answer is public 
education.
    Senator McCain. It's funny. When I have town hall meetings, 
I find the same thing, that once you explain what the situation 
is, and how unacceptable the status quo is, people seem to be 
much more reasonable about it. Obviously, all of us have been 
strongly encouraging a dialogue amongst all of our citizens so 
that we can reach a conclusion.
    I thank the witnesses. Mr. Rascon, finally, rereading your 
citation again, I find it hard to comprehend, and thank you 
for, your service and your courage.
    Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Professor Stock, is there any way to put a number on how 
many military members, whether you be a legal resident or 
actual citizen, have family members who are undocumented?
    Ms. Stock. I don't think so, Senator Graham, because 
immigration law, again, is so complicated, only the individual 
knows. They're afraid right now, and they're afraid because the 
House says they're all going to become felons here shortly, and 
the military members themselves might become felons for helping 
them out.
    Senator Graham. Let's walk through that. Would you hazard a 
guess and say it's thousands?
    Ms. Stock. I would say it's thousands, Senator Graham.
    Senator Graham. So, we have thousands of people who are 
related to military members, whether they're citizens or 
noncitizens, that are basically in a legal no-man's land. Is 
that correct?
    Ms. Stock. That's correct. It's not just military members, 
either, it's Federal employees. We have lots and lots of 
Federal employees who have illegal spouses, parents, children.
    Senator Graham. Mr. Gonzalez, what would be the effect on 
this problem if one of the solutions Congress pursued was to 
make every person who crossed the border, or overstayed a visa, 
a felon?
    Mr. Gonzalez. Sir, the agency that I'm privileged to head 
is not a law enforcement agency. We're a benefits agency.
    I think I'm out of my lane in trying to answer that 
question for you.
    Senator Graham. What would common sense tell you?
    Mr. Gonzalez. Common sense would tell me that we would have 
some very busy Immigration and Customs Enforcement agents out 
there.
    Senator Graham. Professor Stock, what would the legal 
answer be?
    Ms. Stock. Senator Graham, I believe, from your background, 
when you make something a felony, you have to start providing 
lawyers to all the people.
    Senator Graham. So, if you want more lawyers, vote----
    Ms. Stock. If you want more lawyers----
    You're going to need more prosecutors, more defense 
attorneys, more judges. In fact, immigration is going to take 
over the whole legal system.
    Senator Graham. So, is the House legislation the ``Lawyer 
Employment Act?''
    Ms. Stock. It's not just that, it's the ``Immigration 
Lawyer Full Employment Act.''
    Senator Graham. The reason that we kind of laugh about this 
a bit is that the policies that we're pursuing really do matter 
to people. I'm trying to come up with, along with my 
colleagues, proposals that punish people who violate our laws, 
but will have a just result.
    To me, a just result would be to allow people to be 
punished for what is a misdemeanor offense, get right with the 
law, pay taxes, learn English, go through many hurdles before 
you can get that green card, but justice would demand, I think, 
Professor Stock, that the punishment be proportionate to the 
crime.
    Do you believe a felony offense for illegal immigration 
violation is proportionate to the crime?
    Ms. Stock. No, Senator, I don't. I also think it hurts our 
national security to focus all those resources on pursuing that 
type of offense. In law enforcement, we know that good law 
enforcement means setting priorities. It's the same with 
national security. We need comprehensive immigration reform. We 
need the Senate bill.
    Senator Graham. Last question. To our Medal of Honor 
winner, how does this debate that's been going on in the 
country strike you?
    Mr. Rascon. It is very odd that you mention that. I was an 
immigration officer at one time, a senior special agent. The 
impact of the border is really not the issue. It ends up being 
people with concepts, people with misconceptions, and literally 
people who are ignorant of what's going on.
    As everybody else has mentioned here, you end up having to 
deal with the law. The law specifies an issue to an end. The 
immigration law ends up being--as was mentioned by Professor 
Stock, you better know what you're getting into before you get 
out of it, because it ends up being literally a bag of worms.
    We ended up with issues back in 1986, with the Salvadorans, 
and it's a no-winner. The situation is we, as immigrants, are 
here for one purpose, to give back to this country for what 
this country has given us.
    Yes, we have people that are bad. That's the way life is. 
Someplace along the line, someplace within Congress, within the 
Senate, somebody has to get away from means and end up dealing 
with the issue of what is the end product.
    Are you going to come back and put somebody in jail? Are 
they really felons? Are they terrorists? No.
    They end up being people who want to come to this country 
because it's the opportunity that no other country gives you, 
the choice to seek freedom. What other country will give you 
that?
    I don't see anybody lining up to go back to Afghanistan, or 
to go back to Iraq. We are a country of immigrants, no matter 
how they like it or not. We have to make something with it, and 
we have to deal with common sense and get away from our 
predilections. That's all there is to it.
    Chairman Warner. Thank you very much. We're greatly 
indebted to each of you who have taken the time to join us 
today.
    Professor Stock, you traveled all the way from Alaska, and 
you get back on a plane and go right back tonight. That's the 
sort of contribution that's important.
    My one question to you is--and you can answer it for the 
record, if you so desire, later--but your collective 
contributions this morning have put my mind to work to make 
certain that all of these good ideas are before those members 
of the House and the Senate that are working, hopefully, at 
this very moment, to construct a piece of legislation.
    Is there anything missing from, say, the House debate or 
the Senate debate, that was overlooked, so that it's not a part 
of the record today, that you feel is essential to be included 
in whatever legislation Congress eventually enacts?
    Ms. Stock. Thank you, Senator, for that opportunity. I 
would like to say that the one thing I think is missing has 
been brought out today at this hearing, which is the 
contribution that immigrants make to the military.
    I don't think that anyone has taken that into account to 
date until this committee hearing was held, and so I thank you 
very much for holding this hearing today. I know that the 
information provided at this hearing will now go before the 
House and the Senate as they go to conference on the 
comprehensive immigration reform bill.
    Chairman Warner. Thank you very much for that.
    Mr. Rascon, your views? Anything that you think is missing?
    This hearing itself, the record, of course, will be 
available to those who--the conferees, as we refer to them, 
working on this legislation. Is there anything specifically you 
would like to add?
    Mr. Rascon. No, Senator Warner, not really. I think, like I 
mentioned before, it's just an issue of common sense.
    Chairman Warner. All right. I like that, common sense. Good 
point.
    Director Gonzalez, you have a means by which to work 
through the administration, and, indeed, through the President, 
who has shown enormous strength and wisdom and conviction to 
get this done. I presume that you don't feel there's any 
deficiency thus far in the record.
    Mr. Gonzalez. No, sir. I think this is a much deserved 
hearing, because it's a very important aspect of the 
immigration debate that has gone unnoticed.
    It's not abstract. Immigrants are people. When you start to 
think that the person next door to you may be an immigrant, and 
you don't know it--your doctor, your college professor, your 
banker--it brings the whole subject into a whole new light.
    I'm lucky to be in an agency where most of the people, the 
professionals and the career individuals that are still with me 
today, have in the past been through lifetimes where we looked 
at ways of regularization, and we look forward to working with 
you on any information or any technical advice we can give you 
as we move forward. I appreciate the opportunity, sir.
    Chairman Warner. Thank you. I believe that we saw this 
morning, in the testimony of General Pace, a message that will 
resonate throughout our Nation about the importance of this 
legislation and how it should be put together.
    As you said, Mr. Rascon, good, old-fashioned common sense 
and fairness and decency to those human beings put on this 
Earth by God Almighty, and we should treat them that way.
    I thank the President of this distinguished Miami-Dade 
College, Mr. Montoya, and Chief Timoney, thank you very much.
    Thanks to the audience. As Senator McCain opined and 
observed, you've been very courteous and very much a part of 
this hearing. I think when you look back that you'll find that 
this was a memorable day in your life, as it is to, I think, 
tens of thousands of other Americans who can see this by virtue 
of the television that was taken today.
    Senator Kennedy. Mr. Chairman, could I just mention some 
members of the Service Employees International Union, who I 
understand were here, and some of them have relatives who are 
serving over in Iraq at this time. They have joined the 
audience, as well.
    Chairman Warner. Thank you very much. Senator McCain has 
asked for me to submit for the record a letter I received from 
John M. Shalikashvili, the former Chairman of the Joint Chiefs 
of Staff and I will do so at this point.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. If there's nothing further from my 
colleagues, we will now adjourn quickly to a press conference. 
Thank you. We are adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                  IMMIGRANTS IN THE U.S. ARMED FORCES

    1. Senator McCain. Secretary Chu, what is the estimated number of 
immigrants presently serving in the United States Armed Forces?
    Secretary Chu. As of May 31, 2006, there were 23,645 noncitizen 
legal residents serving in the Active Forces, and 9,723 in the Reserves 
and National Guard.

    2. Senator McCain. Secretary Chu, is this number growing and if so, 
why?
    Secretary Chu. The total number of non-United States citizens 
serving in the United States Armed Forces has declined over the past 
few years--from about 49,000 in 2003 to 33,368 in May 2006. Our 
recruiting of noncitizen legal residents continues to be strong--
averaging almost 9,000 per year from 2001 to 2005. We believe that more 
of our noncitizen servicemembers are becoming naturalized United States 
citizens.
    Two major changes in the naturalization processing of noncitizens 
serving in the Armed Forces have contributed to the increased 
naturalization rate:

         The application fees have been waived, citizenship ceremonies 
        are being conducted overseas, and this has resulted in doubling 
        the average number of naturalization processing from 324 per 
        month (from September 11, 2001 to September 30, 2004) to 649 
        per month (from October 1, 2004 to the present); and
         The United States Citizenship and Immigration Service has 
        reduced the average time it takes to process military member 
        citizenship applications from 9 months to less than 60 days.

    3. Senator McCain. Secretary Chu, what is the draw for immigrants 
to serve in our military?
    Secretary Chu. Noncitizens join our Armed Forces for similar 
reasons as citizens: service to the United States (in their case, their 
adopted country), training, education, adventure, travel, experience, 
etc. There is the additional draw of an accelerated path to citizenship 
by virtue of military service.

    4. Senator McCain. Professor Stock, how do noncitizens perform in 
the military as compared to citizens?
    Ms. Stock. \1\ According to a recent study by the Center for Naval 
Analyses, noncitizens in the military perform extremely well. The 
study, titled ``Noncitizens in Today's Military: Final Report.'' CRM 
D0011O92.A2/Final, April 2005, showed that across the board, 
noncitizens are a very valuable asset for the Armed Forces, providing 
linguistic and cultural diversity to our military forces. They also 
perform better in some respects than citizen recruits. To give one 
example, the study showed that noncitizens ``have 36-month attrition 
rates that are 9 to 20 percentage points lower than the attrition rates 
of white citizens.'' The study also noted that ``much of the growth in 
the recruitment-eligible population will come from immigration,'' 
making it more and more important for the armed services to attract and 
retain noncitizens.
---------------------------------------------------------------------------
    \1\ Attorney (admitted in Alaska); Lieutenant Colonel, Military 
Police, U.S. Army Reserve; and Associate Professor (Individual 
Mobilization Augmentee), Department of Social Sciences, United States 
Military Academy, West Point, NY. The statements, opinions, and views 
expressed herein are those of the witness only and do not necessarily 
represent the views of the United States Military Academy, the 
Department of the Army, or the Department of Defense.

    5. Senator McCain. Professor Stock, what is your experience with 
the motivations of immigrants who join the military?
    Ms. Stock. Immigrants who join the military are motivated by the 
same reasons that motivate native-born Americans to join the military--
they are patriotic, they wish to serve their country, they see the 
military as an opportunity to help others, they believe that the 
military will provide them with a fulfilling career opportunity.

    6. Senator McCain. Professor Stock, do immigrants join the military 
just to gain expedited citizenship, or are there other motivations?
    Ms. Stock. Just like native-born recruits, they enjoy the military 
lifestyle and embody military values such as honor and selfless 
service. They also appreciate the educational and travel opportunities 
that military service provides. While most immigrants arc very much 
aware of the opportunity to obtain American citizenship faster through 
their military service, this is not their only motivation for joining.

    7. Senator McCain. Professor Stock, what is your experience with 
the motivations of immigrant cadets who join the United States Military 
Academy?
    Ms. Stock. With the exception of foreign exchange cadets, all 
cadets at the United States Military Academy are United States 
citizens, because U.S. citizenship is required for admission. Many 
cadets, however, are naturalized United States citizens. They all 
obtained their American citizenship before taking the oath to become 
cadets, and so entering the Academy does not give them an advantage in 
obtaining American citizenship. When I talk to them about their reasons 
for joining the military, they cite the same reasons as native-born 
cadets--the opportunity to serve their country and become leaders of 
character, among other things. In addition, however, many of them tell 
me that they feel a unique obligation to serve their adopted country, 
the United States of America.

    8. Senator McCain. Professor Stock, how do refugees and asylees 
contribute or potentially contribute to the Armed Forces?
    Ms. Stock. Refugees and asylees constitute an untapped, highly 
qualified potential source of military manpower. They often come from 
conflict-ridden countries in which our military forces are deployed or 
may deploy in the future, and they have language and cultural skills 
that are highly valued by our Armed Forces. They have also been 
screened by DHS to ensure that they are not terrorists, and they are 
admitted to the United States permanently so that eventually most will 
become lawful permanent residents. Many of the military Services, 
however, will not permit refugees and asylees to enlist until they have 
obtained their lawful permanent residence--a process that can take 
years, and which is dependent on DHS processing times. Congress has 
given the Armed Forces the statutory authority to enlist these persons 
where it is ``vital to the national interest,'' and should encourage 
the military to take advantage of this untapped source of potential 
recruits.

                 ILLEGAL IMMIGRANTS IN THE ARMED FORCES

    9. Senator McCain. Professor Stock, are illegal immigrants subject 
to Selective Service?
    Ms. Stock. Undocumented or illegal immigrants are required to 
register for Selective Service under the terms of 50 U.S.C.S. Appendix 
 453 (requiring all foreign-born males age 18 to 26 who are residing 
in the United States to register).

    10. Senator McCain. Professor Stock, can illegal immigrants be 
drafted in the event of a draft?
    Ms. Stock. If a draft is instituted, they can be drafted (although 
they can decline to serve and leave the United States, if they wish, 
thereby incurring a permanent bar to obtaining American citizenship).

    11. Senator McCain. Professor Stock, if illegal immigrants serve in 
the military, are they treated differently in wartime than in 
peacetime?
    Ms. Stock. If they serve in the military during wartime, they can 
obtain U.S. citizenship without first obtaining lawful permanent 
residence, under the provisions of section 329 of the Immigration and 
Nationality Act. In peacetime, however, illegal or undocumented 
immigrants cannot obtain lawful permanent residence or U.S. citizenship 
through military service.

    12. Senator McCain. Professor Stock, are there groups of 
noncitizens who are legally present in the United States--but not yet 
lawful permanent residents--who should or could be allowed to serve in 
the U.S. Armed Forces?
    Ms. Stock. Yes, there are many noncitizens who are present in the 
United States who could potentially serve in the Aimed Forces, but who 
are currently not permitted to enlist because of Service policy. These 
included refugees, asylees, applicants for adjustment of status, and 
certain nonimmigrants such as M-1B workers and foreign students. Under 
the current enlistment statute, the Armed Forces are permitted to 
enlist such persons if the Secretary of the Service concerned 
determines that it is ``vital to the national interest.'' To dale, no 
Service Secretary has made such a determination. Yet these noncitizens 
constitute a pool of highly-qualified potential recruits.

                    U.S. CITIZENSHIP FOR IMMIGRANTS

    13. Senator McCain. Secretary Chu, what effect does gaining 
citizenship have on the morale and motivation of a U.S. serviceman?
    Secretary Chu. It improves morale. Noncitizens who become citizens 
can reap other benefits from military service, such as the ability to 
apply for security clearances and receive substantial bonuses for 
language skills. Naturalized servicemembers get other rights and 
privileges of United States citizenship, such as the right to vote, 
automatic granting of citizenship to dependent children, and the 
ability to sponsor family members living overseas.
    Noncitizens perform well, both throughout boot camp, and throughout 
the first term of service. Many of them pursue citizenship while in the 
military, which is positively correlated with retention. Noncitizens 
provide the military with a rich pool of diverse recruits who have 
significant potential to succeed.

    14. Senator McCain. Secretary Chu, what programs are currently 
offered to immigrants for an accelerated path to citizenship? Please 
explain.
    Secretary Chu. Title 8, U.S.C., requires immigrants to be resident 
aliens for 5 years before they can apply for United States citizenship. 
Section 328 of title 8, U.S.C., allows noncitizens serving in the 
United States Armed Forces during peacetime (including members of the 
Selected Reserve of the Ready Reserve) to apply for United States 
citizenship after 1 year of honorable service.
    Section 329 of title 8, U.S.C., allows the President to authorize 
noncitizens serving in the United States military during times of 
conflict to apply immediately for United States citizenship. Executive 
Order 13269, signed July 3, 2002, authorized this exception, effective 
September 11, 2001.
    The National Defense Authorization Act for Fiscal Year 2004 
required the United States Citizenship and Immigration Service (USCIS) 
to provide overseas naturalization interviews, tests, and oaths, and to 
waive the citizenship application fee for military personnel beginning 
October 1, 2004.
    The USCIS has established a special office in its Nebraska 
Processing Center to expedite citizenship applications for military 
members and their families. The average processing time has been 
reduced from 9 months to less than 60 days.

    15. Senator McCain. Secretary Chu, how are immigrants recruited and 
evaluated for this program?
    Secretary Chu. The Department of Defense (DOD) has no specific 
program to recruit noncitizens specifically for an accelerated path to 
citizenship. Nonresident aliens, eligible for enlistment under section 
504, title 10, U.S.C., are screened and evaluated under the same 
criteria as all other potential enlistees. Once in the Service, of 
course, there is a program for accelerated citizenship.

    16. Senator McCain. Director Gonzalez, how important is it to an 
immigrant to have the opportunity to become a U.S. citizen?
    Mr. Gonzalez. Mr. Gonzalez did not respond in time for printing. 
When received, answer will be retained in committee files.

    17. Senator McCain. Director Gonzalez, what advantages does 
citizenship afford immigrants in society?
    Mr. Gonzalez. Mr. Gonzalez did not respond in time for printing. 
When received, answer will be retained in committee files.

    18. Senator McCain. Director Gonzalez, if the U.S. had a permanent 
class of immigrants that were never able to become citizens, what 
affect do you think it would have on that immigrant community and our 
society as a whole?
    Mr. Gonzalez. Mr. Gonzalez did not respond in time for printing. 
When received, answer will be retained in committee files.

    19. Senator McCain. Director Gonzalez, what improvements to the 
naturalization process for military personnel have been made during 
your time so far as Director of the USCIS?
    Mr. Gonzales. The most recent improvement to the military 
naturalization process became effective May 1, 2006. In collaboration 
with the Federal Bureau of Investigation (FBI) and the DOD, USCIS 
instituted a change in our fingerprint process to better serve U.S. 
military personnel applying for naturalization. Under this improved 
process, military members applying for naturalization may sign a 
Privacy Act Statement and Release Authorization Form, explicitly 
consenting to the use of the fingerprints provided at time of 
enlistment for immigration benefits purposes, rather than having to 
appear at one of our Application Support Centers post-deployment to 
provide a new set of fingerprints. Furthermore, if we are aware of an 
impending deployment, we expedite FBI name checks for soldiers. This 
new procedure applies to all noncitizen members of the U.S. Armed 
Forces seeking naturalization and eliminates a significant obstacle 
that previously delayed some military naturalization cases.

    20. Senator McCain. Director Gonzalez, how many posthumous 
naturalizations have been granted by USCIS so far?
    Mr. Gonzales. As of July 9, 2006, USCIS has granted posthumous 
citizenship to 75 servicemembers stemming from the war on terror.

                        DIVERSE MILITARY CULTURE

    21. Senator McCain. Secretary Chu, overall, what are the effects of 
having a diverse military workforce and culture?
    Secretary Chu. The United States military values and strives to 
achieve a diverse workforce, because we believe that diversity produces 
the strongest, most adept workforce with the most intelligence leaders. 
Reflecting this consistent effort, on many fronts, the United States 
military has been a leading institution providing equal opportunities 
for racial and ethnic minorities and women. We welcome people with 
disabilities in our civilian workforce and the military community, 
which includes wounded servicemembers and many individuals with 
disabilities among dependents and retirees.
    Having a diverse military workforce and culture has several 
positive effects on military readiness and accomplishment of the 
military mission.

         Having a diverse military workforce and a military community 
        that welcomes diversity provides an inclusive environment that 
        encourages everyone to participate, put forward his best 
        efforts, and excel. This helps us attract the best talents from 
        every sector of the population. With the best talents from all 
        backgrounds, the United States military will continue to be the 
        best military in the world.
         Diversity begets more diversity. The United States Census 
        Bureau projects that the country is increasingly diverse, 
        especially among youth. The military will face an increasingly 
        diverse recruiting market and it will need to attract youth 
        from diverse backgrounds. A diverse workforce may be an 
        attractive feature for potential recruits and a cause for 
        current members to remain in the military.
         It is essential that the military reflect the country. In a 
        democracy, the strength of the military depends on the trust of 
        the people, and the American people are increasingly diverse.
         The global war on terrorism is being fought in different 
        corners of the globe, where minorities may be better able to 
        blend in with local populations. Winning the global war on 
        terrorism requires more than directly engaging the enemy in the 
        battlefields. Military members who come from diverse 
        backgrounds often bring language skills and familiarity with 
        other cultures and customs that may enhance unit effectiveness 
        in intelligence gathering and building relationships with the 
        local populations.
         The global war on terrorism is also fought virtually, from 
        desks and offices throughout the United States, as well as 
        physically, in far-flung locations. Age and disability need not 
        be barriers to the effectiveness of DOD civilians in supporting 
        our troops.
         Having a diverse military workforce and culture communicates 
        to coalition forces, allies, and the world, an America that is 
        culturally and religiously tolerant. In this way, the United 
        States military can help change negative perceptions of 
        Americans around the world.

                           IMMIGRATION REFORM

    22. Senator McCain. Professor Stock, how will comprehensive 
immigration reform help military members and their families?
    Ms. Stock. Comprehensive immigration reform will help military 
members and their families. Among the estimated 8 to 20 million illegal 
or undocumented immigrants in America today are the families of 
military members, and sometimes military members themselves. Many 
military members have spouses, parents, siblings, and children who are 
unable to obtain legal status in the United States today because our 
current laws do not allow them to become legal. For example, many 
military members have spouses who cannot obtain status in the United 
Stales, but who cannot process for visas overseas because once they 
depart the United States to try to obtain a visa, they trigger a 
permanent bar to returning. These spouses are essentially trapped in 
the United States as a result of the immigration ``reforms'' enacted in 
1996. Comprehensive immigration reform will help these family members 
obtain legal status.

    23. Senator McCain. Professor Stock, does the ``enforcement only'' 
approach help or hurt them?
    Ms. Stock. An ``enforcement only'' approach will hurt them, because 
they will be deported and barred from returning to the United Stales 
permanently. We have already seen cases where military members fighting 
in Iraq have experienced serious added stress because they fear that 
the Department of Homeland Security (DHS) will deport their family 
members while they are overseas fighting for this country. In some 
cases, DHS has even moved to deport the military members themselves.
    Comprehensive immigration reform will also help the Armed Forces 
generally by adjusting the status of many undocumented or illegal 
immigrants who are currently residing in the United Slates. Once these 
persons have been cleared by DHS and obtained legal status, many will 
likely enlist in the Armed Forces. The armed services are currently 
turning away many highly-qualified recruits because these recruits do 
not have legal status.

    24. Senator McCain. Professor Stock, what sorts of immigration 
problems do members of the U.S. Armed Forces and their families 
encounter? Please provide examples.
    Ms. Stock. Military members and their families of course encounter 
the same problems with our immigration system that nonmilitary people 
experience, including slow processing of cases. In addition, they 
experience special problems as a result of their military duty and the 
fact that military families move frequently. For example, some military 
members have had applications by their spouses denied because the 
military member has been unable to appear at an interview in the United 
States because he or she is deployed; in these cases, the DHS officers 
have denied the petition or application, rather than rescheduling it or 
conducting a telephone interview. In other cases, the military member's 
frequent moves have caused the petition or application to be delayed or 
denied because DHS sends notices to old addresses, or the application 
or petition must be transferred to a new office. Finally, consular 
officers have denied visas to the family members of immigrants because 
the consular officers believe that military salaries are too low to 
meet the ''public charge'' requirements of the immigration laws. These 
problems create added stress for military families.

    25. Senator McCain. Professor Stock, has the Judge Advocates 
General Corps been effective in providing legal assistance on 
immigration and citizenship problems to members of the U.S. Armed 
Forces and if not, why not?
    Ms. Stock. The Judge Advocate General (JAG) Corps legal assistance 
officers try very hard to help military members with their immigration 
problems. When dealing with very simple mailers, JAG officers do a 
reasonable job of helping military members and their families. 
Unfortunately, however, immigration law is extremely complex, and the 
vast majority of JAG attorneys do not have the background or training 
necessary to spot or solve complex military-related immigration 
problems. JAG officers are generally trained only in the basics of 
immigration law. I have had opportunity to provide immigration-related 
legal assistance to military members, alongside JAG officers, and have 
observed many cases in which well-meaning JAG officers have provided 
incorrect advice about U.S. immigration law to military members. In 
some cases, this incorrect advice has led to very serious consequences 
for the military members and their families.
    JAG officers who are aware of the complexity of U.S. immigration 
law do refer military members to outside lawyers with immigration law 
expertise. In those cases, however, the military members must usually 
pay the legal fees of these private lawyers, which can be substantial. 
In many cases, military members cannot afford to hire private 
attorneys, and are forced to handle the immigration matter themselves, 
which can lead to disastrous results.

    26. Senator McCain. Professor Stock, what are some of the ways that 
the immigration system could be reformed to make it more responsive to 
the needs of members of the Armed Forces?
    Ms. Stock. First, comprehensive immigration reform will help--
especially if it makes it possible for military family members to 
become legal, and if the immigration system becomes less complex and 
possible to navigate without the assistance of a highly-trained 
attorney. Next, central handling of military-related cases is useful, 
because a central office is more likely to be sympathetic and able to 
handle military-related problems such as frequent moves and 
deployments. Third, military members would be greatly assisted by a 
specific statute preventing DHS from initiating deportation or removal 
proceedings against them and their family members, and a statutory 
waiver for certain technical violations of the immigration laws that 
affect military members and their families. Finally, DHS should be 
encouraged to provide more training to its employees with regard to the 
special situations of military personnel.

                               DREAM ACT

    27. Senator McCain. Professor Stock, how would enactment of the 
Development, Relief, and Education for Alien Minors (DREAM) Act help 
the U.S. Armed Forces?
    Ms. Stock. Passage of the DREAM Act (S. 1545) would help the armed 
services considerably by dramatically expanding the numbers of highly-
qualified American-educated young people who are eligible to enlist in 
the military.

    28. Senator McCain. Professor Stock, do you foresee any problems 
with the DREAM Act?
    Ms. Stock. The committee should be aware, however, that the DREAM 
Act does pose some problems for the military: Because of language in 
the law, DREAM Act beneficiaries who serve in the military will take 
much longer to get their U.S. citizenship than other noncitizens who 
join the military. This problem arises because the latest draft of the 
DREAM Act prohibits DREAM Act beneficiaries from becoming naturalized 
U.S. citizens until they have had the conditions lifted on their lawful 
permanent residence status--and this process is entirely dependent on 
DHS processing times, which may take years. Finally, the committee 
should be aware that some of the armed services have a policy of 
refusing to enlist conditional lawful permanent residents, for reasons 
that relate to an apparent misunderstanding of what ``conditional 
lawful permanent residence'' means. Thus, although conditional lawful 
permanent residents today are permitted by law to enlist in the Armed 
Forces, some military branches have a policy against enlisting them 
until the conditions are lifted on their status. If this policy 
continues after passage of the DREAM Act, these branches of the 
military will presumably prohibit DREAM Act beneficiaries from 
enlisting (all DREAM Act beneficiaries will be conditional lawful 
permanent residents). Essentially, these beneficiaries will be in a 
``Catch 22'' with regard to their status, at least with regard to 
military service. Congress should direct the Armed Forces to stop 
prohibiting conditional lawful permanent residents from enlisting.

    [Whereupon, at 1:25 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
